<html>
<title> - THE 30TH ANNIVERSARY OF TRIBAL SELF-GOVERNANCE: SUCCESSES IN SELF- GOVERNANCE AND AN OUTLOOK FOR THE NEXT 30 YEARS</title>
<body><pre>[Senate Hearing 115-403]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 115-403

                  THE 30TH ANNIVERSARY OF TRIBAL SELF	
                     GOVERNANCE: SUCCESSES IN SELF	
            GOVERNANCE AND AN OUTLOOK FOR THE NEXT 30 YEARS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 18, 2018

                               __________

         Printed for the use of the Committee on Indian Affairs
         
                [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
33-405 PDF		  WASHINGTON : 2019 




                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               BRIAN SCHATZ, Hawaii
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MIKE CRAPO, Idaho                    TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 18, 2018...................................     1
Statement of Senator Cantwell....................................    28
Statement of Senator Hoeven......................................     1
Statement of Senator Lankford....................................    17
Statement of Senator Murkowski...................................    26
Statement of Senator Smith.......................................     4
Statement of Senator Udall.......................................     2

                               Witnesses

Benjamin, Hon. Melanie, Chief Executive, Mille Lacs Tribe of 
  Ojibwe.........................................................     5
    Prepared statement...........................................     6
Blazer, Hon. Arthur ``Butch'', President, Mescalero Apache Tribe.    18
    Prepared statement...........................................    19
Floyd, Hon. James, Principal Chief, Muscogee (Creek) Nation......    11
    Prepared statement...........................................    12
Hisa, Hon. Carlos, Governor, Ysleta Del Sur Pueblo...............    14
    Prepared statement...........................................    15

                                Appendix

Port Gamble S'Klallam Tribe, prepared statement..................    31
Response to written questions submitted by Hon. Catherine Cortez 
  Masto to:
    Hon. James Floyd.............................................    44
    Hon. Carlos Hisa.............................................    45
Response to written questions submitted by Hon. Steve Daines to 
  Hon. James Floyd...............................................    44
Self-Governance Communication and Education Tribal Consortium 
  (SGCETC), prepared statement...................................    34
United South and Eastern Tribes Sovereignty Protection Fund (USET 
  SPF), prepared statement.......................................    41
Written Questions Submitted by Hon. Steve Daines to Hon. Arthur 
  ``Butch'' Blazer...............................................    45

 
   THE 30TH ANNIVERSARY OF TRIBAL SELF-GOVERNANCE: SUCCESSES IN SELF-
            GOVERNANCE AND AN OUTLOOK FOR THE NEXT 30 YEARS

                              ----------                              


                       WEDNESDAY, APRIL 18, 2018


          U.S. Senate, Committee on Indian Affairs, Washington, DC.
                                                    
                                                    
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. I call the hearing to order.
    Before we start, I want to honor another member of the 
Senate Committee on Indian Affairs, former Chairman and Senator 
John Melcher of Montana, who passed away last Thursday at the 
age of 93.
    Senator Melcher served in the Army during World War II and 
was a part of the Normandy invasion force in 1944. He graduated 
from veterinary school at Iowa State University in 1950 and 
settled in Forsyth, Montana.
    He was elected the town's mayor three times and served in 
the State legislature before entering Congress. He served in 
this body from 1976 through 1988. He served as Chairman of the 
Indian Affairs Committee in the 96th Congress from 1979 to 
1981.
    Please join me in a moment of silence.
    [Moment of silence.]
    The Chairman. Thank you.
    Today's hearing commemorates the 30th anniversary of the 
enactment of one of the most successful laws in Indian history, 
the Indian Self-Determination and Education Assistance Act 
Amendments of 1988.
    This Act, passed by Congress in 1988, was the result of 
critical input and leadership from tribes across our country, 
and marked a significant turning point in tribal self-
governance.
    In 1987, tribal leaders testified before this Committee 
that the policy of self determination, which began with the 
Indian Self-Determination and Education Assistance Act of 1975, 
had resulted in greater utilization of services, increased 
access to education, stronger Indian families, and more 
effective tribal law enforcement.
    However, though the law made many positive changes, 
inflexible bureaucracy and Federal inefficiencies restricted 
implementation of the 1975 Act. As a result, an alliance of 
tribes and tribal organizations joined forces to develop 
legislative proposals addressing these issues.
    These proposals were incorporated into the Indian Self-
Determination and Education Assistance Act Amendments of 1988 
which increased the tribes' ability to redesign and tailor 
services to the specific needs of their communities.
    While the amendments initially authorized a self governance 
demonstration project within the Bureau of Indian Affairs, this 
program was eventually made permanent at the Department of the 
Interior. Later, at the Indian Health Service, a similar 
program began and was subsequently made permanent.
    Today, we will hear from our witnesses about the history of 
self-governance, its contributions to Indian Country and how 
this program can be improved to best help tribes chart their 
own course.
    However, before we do that, I want to highlight that just 
last week, the Committee unanimously passed S. 2515, the 
Progress for Indian Tribes Act. This bill, which I sponsored 
along with a number of our members, further amends the 1975 Act 
incorporating tribal recommendations for improving the process 
for negotiating and finalizing compacts between tribes and the 
Secretary of the Interior for Bureau of Indian Affairs 
programs.
    Previous iterations of this bill have been introduced since 
at least 2003. It is past the time that we pass the bill. I 
urge my colleagues to work together to get this important 
legislation to the President's desk.
    I want to thank Vice Chairman Senator Udall for joining me 
in co-sponsoring the bill as well as Senators Murkowski, 
Barrasso, Sullivan and Cantwell.
    Vice Chairman Udall, I will turn to you now for any opening 
statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven, for calling this 
oversight hearing to commemorate the 30th anniversary of tribal 
self-governance.
    I would like to begin by welcoming Butch Blazer to his 
first Indian Affairs hearing as President of the Mescalero 
Apache Tribe. President Blazer has many years of experience in 
public service and his wealth of knowledge on tribal self-
governance is invaluable to our discussion.
    Thank you for being here.
    Made permanent at the Department of the Interior and Health 
and Human Services through amendments to the Indian Self-
Determination and Education Assistance Act, tribal self-
government acknowledges that tribes have the right to govern 
themselves, with minimal Federal oversight, and maximum 
flexibility to meet local tribal needs.
    Tribal self-governance has been so successful that over 50 
percent of all Federal Indian programs are being carried out by 
approximately 360 of the 573 federally-recognized Indian 
tribes.
    These self-governance tribes, including those represented 
by our witnesses here today, are fully responsible for Federal 
programs, functions, services and activities as well as 
associated funding resulting in effective self rule for 
participating tribes.
    When the Self-Governance Compacting Program was made 
permanent in 1994, bureaucratic regulation and control of 
Indian programs administered by tribes should have been a thing 
of the past.
    The reality is the road to the full exercise of tribal self 
determination in the 1970s, and now of tribal self governance, 
has not been swift or without detours. Congress passed the 
Indian Self-Determination Act in 1975 intending to provide 
tribes and tribal organizations with the option to step into 
the shoes of the Federal Government.
    For years, Federal agencies continued to exercise heavy-
handed control that inhibited tribes from adapting programs to 
local needs. In 1988, tribes, like the Mescalero Apache, 
persuaded Congress to strengthen the Act by including the 
Tribal Self-Governance Demonstration Project, an initiative 
that expanded programs tribes could take over and reduce 
Federal oversight after tribes assumed control.
    Based on the success of the demonstration project, Congress 
acted again to improve the Act by making the DOI and the HHS 
self-governance programs permanent in 1994 and 2000, 
respectively.
    Self-governance compacting continues to evolve. In 2015, 
President Obama expanded self governance to include Department 
of Transportation programs in addition to several non-BIA or 
non-IHS programs.
    Today, self governance tribes have more options than ever 
to exercise self rule, but more needs to be done. I am proud to 
co-sponsor S. 2515, the Progress for Indian Tribes Act, with 
Chairman Hoeven.
    Our bi-partisan bill makes a number of improvements to 
current law such as creating consistency and building 
efficiencies for tribes that operate both DOI and HHS self-
governance programs.
    Just last week, this Committee reported S. 2515 without 
amendment. It is now primed for floor action.
    On another front, Chairman Hoeven and I are also working on 
bi-partisan farm bill-related legislation that would authorize 
tribes to exercise self governance for the U.S. Department of 
Agriculture programs such as food distribution and forestry.
    In fact, Mescalero Apache is a leader in forestry 
management and has firsthand experience managing its own forest 
lands. It's Division of Resource Management and Protection 
provides high quality forestry services critical for watershed 
protection for the entire Basin.
    In short, the future of self governance over the next 30 
years is bright but, as our tribal witnesses today will attest, 
despite all the gains made over the past three decades, self-
governance tribes continue to confront new challenges to old 
problems, problems such as agency inertia and historic 
resistance to expansion of the program, and inequitable access 
to BIA funds for new programs.
    I look forward to the testimony of our witnesses today. 
Their leadership contributes to the continuing successes of 
tribal self governance and enables it to grow.
    Thank you, Mr. Chairman.
    The Chairman. I will turn to Senator Smith for the purpose 
of an introduction.

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Chairman Hoeven and Vice Chairman Udall, 
please allow me to thank you for holding this Committee hearing 
today on tribal self-governance.
    It is my great pleasure to be able to introduce my friend, 
Melanie Benjamin, who has served as the Chief Executive of the 
Mille Lacs Band of Ojibwe for over 16 years. I also want to 
say, Melanie, I consider you to be a friend, an ally and a 
mentor. I know you to be a woman who speaks her mind and is a 
strong advocate. Thank you for being here today.
    The Mille Lacs Band has been instrumental in shaping 
Federal policy on tribal self governance. This leadership 
continues under your leadership, Chief Executive Benjamin.
    Mille Lacs was one of the first tribes to reach a compact 
and funding agreement with the Indian Health Service in order 
to design programs that work for your community. That 
agreement, I think, has allowed you to expand clinical services 
and also offer and create a better way of delivering care.
    Mr. Chair, I have only been a member of this Committee a 
short time, as demonstrated by not knowing peoples' titles, but 
I have picked up a couple themes that come through all the 
time. One is that virtually every program we see in Indian 
Country, from health and education to housing, is woefully 
under-resourced. I appreciate hearing that over and over again.
    We also hear over and over again that when we empower 
tribes to create solutions that work for your communities and 
members, we get better results and it works better for 
everyone. This is certainly a theme included in Chief Executive 
Benjamin's testimony.
    Melanie, I look forward to hearing your testimony. Thank 
you so much for being with us today.
    The Chairman. Thank you, Senator Smith.
    Our other two witnesses are the Honorable James Floyd, 
Principal Chief, Muscogee Creek Nation of Oklahoma, Okmulgee. 
Oklahoma. Thank you for being here. We appreciate it.
    We also have the Honorable Carlos Hisa, Governor, Ysleta 
del Sur Pueblo, El Paso, Texas. Thank you so much for being 
here as well.
    I want to remind witnesses that your full testimony will be 
made a part of the official record. If you could, try to keep 
your opening comments to five minutes.
    With that, we will turn to the Honorable Melanie Benjamin 
for your testimony.

STATEMENT OF HON. MELANIE BENJAMIN, CHIEF EXECUTIVE, MILLE LACS 
                        TRIBE OF OJIBWE

    Ms. Benjamin. Thank you. Miigwetch for moving quickly last 
week to report out the Progress for Indian Tribes Act, S. 2515. 
Tribal leaders have worked for the past 18 years on this 
language and we urge its swift passage.
    In the mid-1980s, our late Chief Executive, Art Gahbow, 
helped formed the Alliance of American Indian leaders. They 
were trail-blazing leaders who focused on strengthening the 
government-to-government relationship. They demanded the right 
to run their own programs and follow our own ways of 
governance.
    Then, in 1987, a journalism investigation exposed rampant 
fraud that diverted BIA funding everywhere except to Indian 
reservations. The investigation claimed that just 11 cents of 
each dollar made it to the reservations. A special committee 
was created in the Senate to investigate.
    In the meantime, Chairman Sid Yates of the House Interior 
Subcommittee on Appropriations invited Alliance leaders to 
testify about the BIA funding scandal. He asked them, if 
Congress required the BIA to simply give the tribes the funding 
directly, how would they handle it?
    The tribal leaders worked around the clock and proposed 
what became the Self Governance Demonstration Project. Ten 
tribes, including the Mille Lacs Band of Ojibwe, were allocated 
$100,000 each to plan how we could do a better job with BIA 
funding than the BIA was doing.
    Instead of getting 11 cents of every dollar, what if we 
could get 80 cents? That was the focus of the Mille Lacs Band 
approach to self governance. In 1990, we became the first tribe 
to hold self governance compact negotiations with the BIA.
    The idea of self governance was, and still is, that we 
negotiate for a tribal share of funding for programs the BIA or 
Indian Health Service would otherwise provide. Then we design 
program services and activities based on our priorities.
    We faced many battles in those early years. Many Federal 
employees opposed self governance which they saw as a threat to 
their authority, budgets and jobs. We could not get complete 
budgetary information from the BIA and some officials were 
actually hiding money.
    Also, we were not allowed to negotiate for anything that 
was an inherent Federal function, things that only the 
Secretary could carry out. Of course many Federal officials 
argued that nearly everything they did was an inherent Federal 
function.
    We faced similar battles in 1990 with the Indian Health 
Service when it became a part of the self governance. We will 
have challenges today but self governance works. Here are a few 
examples.
    Our Walleye Pike and Mille Lacs Lake are threatened due to 
invasive species. To help the Walleye recover, we wanted to 
start a fish hatchery but hatcheries can cost several million 
dollars. Instead, we scavenged parts from other hatcheries and 
junk yards and we built a hatchery for just $10,000. We 
reprogrammed self-governance funding to support it because that 
was our priority.
    Another example is as a part of the battle against opioids, 
we recently purchased a treatment facility from the State of 
Minnesota. We wanted to create a culturally-sensitive recovery 
program at that facility. We were able to shift self-governance 
funds to support that priority.
    Self governance allows us to more efficiently use Federal 
funds. Our local needs are determined by us and we dictate the 
use of funds, not a Federal official in Minneapolis or in 
Washington, D.C.
    Challenges do remain. First, only $160 million of the BIA's 
annual $2.4 billion appropriation is being transferred to 
tribes under self governance. Second, after 30 years, the self 
governance is still only mandatory for the Indian Health 
Service and the BIA. The budgets in the BIA central office, the 
rest of Interior and HHS programs are all exempt.
    We still have hope for growth. Thirty years ago our vision 
was that self governance would soon be applied across the 
entire Federal Government. That still is our vision.
    In closing, Mr. Chairman and members of the Committee, I am 
very proud of my tribe's role over the past 30 years as a 
partner with the Congress in shaping self-governance policy. 
Self governance is second nature to my tribe. It is at the core 
of everything we do.
    With your support, we seek to do much more in the next 30 
years. The best government is a government closest to the 
governed. The best service delivery is done by government 
closest to those served. That is what self governance is about.
    We urge swift passage of S. 2515. Miigwetch. Thank you.
    [The prepared statement of Ms. Benjamin follows:]

  Prepared Statement of Hon. Melanie Benjamin, Chief Executive, Mille 
                          Lacs Tribe of Ojibwe
    Good afternoon! My name is Melanie Benjamin. I have had the honor 
of serving my people as the elected Chief Executive of the Mille Lacs 
Band of Ojibwe for over 16 years. Before I was elected, and during our 
initial self-governance negotiations, I served as the chief of staff to 
the Chief Executive, and as Commissioner of Administration for our 
Band. Our Reservation is located about one and one-half hours north of 
Minneapolis in east-central Minnesota, with approximately 4,500 tribal 
members.
    Thank you for the invitation to testify today on Tribal Self-
Governance, what we've done with it for the past 30 years and what more 
I and my colleagues and successors in tribal leadership hope to 
accomplish in the next 30 years.
    I would be remiss at the outset of my testimony if I failed to 
thank this Committee for moving quick! y last week to favorably report 
S. 2515, the `` Practical Reforms and Other Goals to Reinforce the 
Effectiveness of Self-Governance and Self-Determination for Indian 
Tribes Act of 2018'' (the ``PROGRESS for Indian Tribes Act'').
    Mille Lacs and many other tribes have worked for the past 18 years 
to draft, shape, and negotiate its language, and to persuade 
Administration after Administration, House after House, and Senate 
after Senate to support its provisions. Now that this Committee has 
once again applied its jockey-whip to these Title IV amendments, we're 
down to the wire at the end of the final lap. We hope S. 2515 does not 
stumble on its way to the finish line in the coming weeks.
    S. 2515 has been preceded by a long string of tribal self-
governance accomplishments. I hope to point to some of those today in 
my testimony, as I briefly summarize the origins of Tribal Self-
Governance policy and take a quick tour of how Tribal Self-Governance 
came to be, what stood in its way, what difference it makes, why it 
matters, and what keeps it from being more widespread.
    Scandalous Origins--How Tribal Self-Governance Came to Be. The 
federal policy of Tribal Self-Governance was not conceived overnight. 
It was carefully crafted by some of the tribal leaders who had formed 
what they called the ``Alliance of American Indian Leaders'' and had 
met together in 1980s to, among other things, draw national attention 
during the 200th anniversary of the U.S. Constitution to the key role 
Indian tribes played in the formation of the United States of America. 
These tribal leaders included one of my predecessors, Art Gahbow, Chief 
Executive, Mille Lacs Band of Ojibwe. He was joined by Joe American 
Horse, Chairman, Oglala Sioux Nation; Wendell Chino, President, 
Mescalero Apache Nation; Joe DeLaCruz, President Quinault Nation; 
Ernest House, Chairman, Ute Mountain Tribe; Roger Jourdain, Chairman, 
Red Lake Band of Chippewa Indians; Larry Kinley, Chairman, Lummi Tribe; 
Earl Old Person, Chairman, Blackfeet Nation; Richard Real Bird, 
Chairman, Crow Tribe; and Jack Thorpe, Principal Chief, Sac and Fox 
Tribe of Oklahoma. These leaders forcefully sought to restore a more 
robust government-to-government relationship between each Indian tribe 
and the United States. They insisted that Indian tribes should have the 
right to control their own programs and workforces, to prioritize where 
their federal funding should be applied, and to follow their own ways 
of governance. And they said it was imperative that the United States 
keep its promises it made to tribes in exchange for land and resources, 
and that the United States honor its trust responsibility to uphold, 
regulate and enforce its treaty obligations. Looking back at the 1980s 
today, these are indeed timeless messages and tribal leaders will 
accept no excuse from those who still, today, refuse to listen.
    In early October, 1987, as the 200th anniversary celebrations were 
winding down, the Arizona Republic newspaper published an eight-day 
investigative series entitled ''Fraud in Indian Country: A Billion 
Dollar Betrayal'' that exposed the rampant and systemic diversion of 
Bureau of Indian Affairs (BIA) funding to everywhere but Indian 
reservations. The Arizona Republic series claimed that just eleven 
cents of every federal dollar appropriated for the benefit of Indians 
was reaching Indian communities.
    The foul smell of that scandal led Senator Daniel Inouye, then 
Chairman of the predecessor to this Committee, to form a Special 
Committee on Investigations, to which he appointed Senator Dennis 
DeConcini (D 09AZ) (Chair), Senator John McCain (R-AZ) (Co-Chair), and 
Senator Tom Daschle (D-SD) (Member).
    At about the same time, the voices of the Alliance of American 
Indian Leaders during the Constitution commemorations caught the ear of 
the House Interior Subcommittee on Appropriations, chaired by Rep. Sid 
Yates (D-IL), who asked leaders of the Alliance to testify in oversight 
hearings after the BIA funding scandals hit the headlines. The Alliance 
leaders were joined at those hearings by several younger tribal leaders 
like Edward K. Thomas, President of the Central Council of Tlingit and 
Haida Indian Tribes of Alaska, and Ron Allen, Chairman of the Jamestown 
S'Klallam Tribe. At one point, Chairman Yates asked the tribal leader 
witnesses--if Congress required the BIA to simply give you the funding 
directly, how would you propose to handle it? What would be an 
effective, tribally-driven solution, he asked?
    The tribal leaders worked around the clock to come up with 
appropriations bill and report language that sketched the outlines of 
the initial tribal self-governance demonstration project. They proposed 
a self-governance model by which tribes would have broad negotiation 
and operational authority to assume administrative responsibility for 
virtually all programs, functions, services and activities previously 
carried out for tribes by federal officials. The ten tribes told the 
Appropriations Committee they wanted to participate in this as a pi lot 
project. They were named in the appropriations measure and each 
allocated $100,000 to begin conducting planning activities.
    The ten tribal leaders also worked with the Senate Committee on 
Indian Affairs and the House Interior Committee to add a new Title III 
to Public Law 93-638, that in 1991 provided a more detailed outline for 
the demonstration project, further describing how tribes would 
negotiate amounts and operate programs w1der the terms of a ''compact'' 
and funding agreement that replaced multiple federal program rules and 
reporting requirements with structures that were primarily accountable 
to the Indian tribe itself.
    The goal at the time was to transform a historically dependency-
ridden federal Indian services delivery system into a government-to-
government relationship that returns power, authority. responsibility, 
accountability and funding to tribal governments at the local level. 
The result were a congressionally-imposed, tribally-driven set of self-
governance authorities that stepped away from the rampant corruption, 
waste, inefficiency, and pointless regulatory burdens that dominated 
the Bureau of Indian Affairs bureaucracy. That work is not yet 
finished.
    Obstacles and Hurdles--What Initially Stood in the Way of Tribal 
Self-Governance? Many federal officials and program staff openly and 
strenuously opposed tribal self-governance in its early days when it 
was being shaped by tribal leaders and their allies on Capitol Hill. 
The federal bureaucracy seemed to see self-governance as a threat to 
its exercise of power. Within some of the ten tribes there was internal 
opposition as well, fueled by a similar fear that self-governance would 
mean that tribal program directors would have a new `` boss''--the 
tribal government--rather than the federal program administrators. At 
its core, tribal self-governance was about shifting power to a tribe's 
governing structure as the most legitimate, appropriate. and effective 
authority.
    It should come as no surprise that tensions arise when a tribe 
seeks to assume a program, function, service or activity previously 
carried out by a federal agency office. Federal officials arc 
understandably reluctant to sit down at the table to negotiate away 
their own authority, sphere of influence, and at times, even their own 
jobs. This is the dynamic that permeated many negotiations for self-
governance agreements. Tribes typically have been faced with federal 
negotiating partners who act like their own jobs are at stake if the 
tribe succeeds in negotiating a self-governance agreement. It is true, 
sometimes their jobs are at issue. This raises some very delicate 
challenges for both the tribes and the federal officials. The human 
dimensions of career paths, home mortgages, children's schools, and 
community ties overwhelm all thought of what is the most efficient and 
sound approach, which is tribal control of tribal service delivery 
systems. While federal workers' personal situations can and do engender 
great sympathy, change like this is a normal and expected part of life. 
The priority must be to get the job done in the best possible fashion. 
The priority is not federal job protection. And there are ample 
provisions in federal statute to protect federal workers who are right-
sized out of their present positions because of tribal self-governance 
assumptions.
    One of the earliest battles in this struggle for power surfaced in 
the struggle to get accurate and complete budgetary information from 
the BIA. To maximize their power, federal bureaucrats would hide 
funding, reallocate it, and reward their favorite tribes and 
consultants with special year-end funding. The Self-Governance 
Demonstration tribes sent an army of lawyers and accow1tants with their 
tribal leaders to demand transparency, pouring over haystacks of 
information to find the needles necessary to determine fair tribal 
share allocations of funding appropriated by the Congress.
    Another early battle dealt with what Congress meant when it said 
``all programs, activities, services, or activities, or portions 
thereof'' were available for self-governance negotiations. Federal 
officials actively sought to hold back from negotiations and 
distribution virtually all federal funding because they argued it all 
supported what the Interior Secretary believed were unique, inherent 
federal functions that only a federal employee could fulfill. 
Protracted, line-by-line and function-by-function negotiations with 
tribal leaders helped to whittle away at the functions and money the 
BTA wanted to keep out of reach. Unfortunately, the BIA under President 
Bill Clinton Administration was able to persuade Senator Slade Gorton 
(R-WA) to include a rider in the annual Interior appropriations bill 
that kept all Central Office funding off' limits to tribal self-
governance negotiations. To this day. two decades later, that same 
restrictive rider reappears in each annual appropriations bill because 
tribal leaders have been unable to persuade the appropriators to stop 
including it. It should be removed today as the last vestige of an 
unenlightened and ill-advised distant past.
    There were many other battle lines that remain. And similar battles 
have ensued with the Indian Health Service ever since Congress exposed 
its programs, functions. services and activities to tribal self-
governance negotiations after 1990. For most of these battles, we 
cannot yet declare victory.
    Why Tribal Self-Governance Works. The self-governance provisions 
authorize tribes to ``compact'' with the federal government, 
specifically the Departments of the Interior and the Department of 
Health and Human Services, to administer virtually all aspects of 
federal programs that are operated by those departments for the benefit 
of that tribe. The statute permits self-governance tribes to redesign 
the federal programs and, where necessary, redistribute funds among the 
different programs they operate. This flexibility, with authority 
1ransferred to the service-delivery level under the control of the 
tribal government beneficiaries themselves, is the hallmark of tribal 
self-governance.
    The concept is similar to that of a block grant. Rather than the 
federal government micro-managing Indian tribes, it contracts with 
tribes to perform those functions. Like state governments, tribal 
governments tend to know best how federal programs and dollars can best 
serve their local communities and meet locally-determined priority 
needs.
    Tribes are authorized in statute to plan, conduct, consolidate, and 
administer federally-funded programs, services, functions, and 
activities according to priorities established by tribal governments. 
Tribes have greater control and flexibility in the use of these funds, 
streamlined reporting requirements, and authority to redesign or 
consolidate programs, services, functions, and activities. In addition, 
tribes receive lump sum funding and may real locate funds during the 
year and carryover unspent funds to the next fiscal year. As a result, 
tribes are able to more efficiently and effectively use the funds to 
address unique tribal conditions and circumstances as they arise. Self-
governance tribes are subject to annual trust evaluations to monitor 
the performance of trust functions they perform. They are also subject 
to annual audits pursuant to the Single Audit Act and OMB Circular A-
133.
    The rationale for tribal self-determination and self-governance has 
always been that the best government is the government closest to the 
governed, and the best service delivery is done by the government 
closest to those served. Both rationales fit the situation of tribal 
governments.
    When a tribal government serves its own members--there are no 
cross-cultural or language barriers; there is more practical 
responsiveness to changing needs; there is far more direct 
accountability to those who are supposed to be served; and there is 
greater potential for maximum f1exibility and efficiency.
    Why Tribal Self-Governance Has Yet to Fully Work. It remains a 
bitter irony that, to this day, far too much of the federal funding 
appropriated each year does not reach the stark, socio-economic needs 
of many Native American Indian communities. lnstead1 those funds are 
spent far away from Indian communities. One thing is for sure, once a 
tribal government receives federal dollars under a self-governance 
agreement, those 11mds are spent and churned right there in the 
targeted Indian community rather than in some distant city bureaucracy 
or research park.
    One of the biggest fictions that has dogged the expansion of tribal 
self-governance is that an expensive and time-consuming federal 
monitoring, reporting, and oversight bureaucracy is needed to ensure 
that a tribe does not squander the scarce federal dollars it 
administers. What this fails to acknowledge is the tribal logic that 
persuaded the Congress to birth tribal self-governance policy in the 
late 1980s--there is no greater accountability pressure than that of 
the tribal voters themselves. If tribal members are not satisfied with 
the services they receive, they are able to organize and vote out the 
tribal leaders who have failed them. Tribal elections are an ultimate 
and effective accountability tool. No such accountability exists when a 
federal government staffer fails to provide satisfactory service or 
controls the delivery of services. Failing federal bureaucrats have the 
shelf-life of a nuclear fuel rod. They seemingly cannot be removed or 
disciplined. When the chain of command is far from the reach of the 
Indian community served. the quality and quantity of the federal 
service often deteriorates to that of an afterthought. Self-governance 
tribes must annually report on their performance objectives and submit 
to a comprehensive Single Audit Act audit. This bare minimum reporting 
and audit oversight structure verifies that funds are applied 
appropriately. Anything more is a waste of federal dollars and diverts 
funds necessary for direct services.
    Another factor that has bedeviled the expansion of tribal self-
governance is the fiction that good ideas only come from the top down. 
This ivory tower approach to federal Indian service delivery has 
trapped Indian Country in a status quo that should be rejected by 
Capitol Hill as w1acceptable. This fiction has created federal careers. 
It has fueled a growth industry in consultants and study-makers. But, 
most critically, it has failed Indian Country. The answers that will 
work will come only from tribal leaders who are elected to answer to 
their own voters.
    Still other crippling myths abound--most notably that a tribe's 
assumption of self-governance responsibilities must of necessity reduce 
the federal government's trust responsibilities. In the early days of 
self-governance, this notion was put forward by federal adversaries of 
tribal self-governance as a poison pill or as a shameless way to shirk 
a legal duty owed to tribes. Congress responded with a clear 
affirmation that nothing in the self-governance title ``shall be 
construed to diminish the Federal trust responsibility to Indian 
tribes. . . .'' This principle has been held inviolate in statute and 
in practice.
    What Difference Does Tribal Self-Governance Make? Tribal Self-
Governance for the Mille Lacs Band and many other Indian tribes has 
been like the difference between walking through the federal maze at 
midnight and walking through it at high noon. There is so much more 
opportunity available when you can see options and exercise your own 
decision-making authority.
    Tribal Self-Governance means we can now design programs as we see 
fit. If we have a better way to provide chemical dependency treatment 
by using a sweat lodge, we can do it. It means we can reprogram federal 
funds the way we want based on our changing needs. For example, if 
unexpectedly we have exceptionally dry weather, we can allocate more 
funds to fire protection.
    Tribal Self-Governance has meant we, as an Indian tribal 
government, sit as a decision-maker at the table when federal 
regulations are negotiated. The 1994 Amendment that made Tribal Self-
Governance permanent for the BIA was the first federal Indian law that 
required negotiated rulemaking and for the first time brought federal 
and tribal officials together to negotiate the development of the 
rules. As a result, they tie the hands of the federal administrators 
and untie the hands of tribal administrators.
    Finally, with Tribal Self-Governance authorities, we use our funds 
more efficiently. Our local needs are detem1ined by us and dictate the 
use of our funds, not a federal official located in Minneapolis or 
Washington, D.C. Our compacts and funding agreements with the federal 
government reflect a true govenment-to-government relationship that 
ensures we are not treated as just another federal contractor.
    Whv Does Self-Governance Matter? Years ago the Mille Lacs Band 
needed to expand our tribal business and governmental operations in 
order to accommodate economic growth on or near to our Reservation. We 
signed memoranda of agreement with a number of federal and state 
agencies for this development to occur. The Mille Lacs Band became the 
lead agency and started businesses that now employ thousands of people 
and established new schools, health clinics, a government center and 
elderly assisted-living units. Very little of this growth could have 
happened without tribal self-governance authority.
    The Mille Lacs Band was one of the first Indian tribes to reach a 
compact and funding agreement with the Indian Health Service (IHS). We 
were able to leverage our self-governance funding to enable an 
expansion of our clinical services on a more efficient model. Most of 
the challenges we encountered in our negotiations with IHS mirrored our 
experience with the BIA; except that our federal counterparts on the 
IHS negotiating team kept showing up in military dress. At one point, 
we overheard them talking about how their Commissioned Corps officer 
uniforms presented a more imposing presence at the table. Given our 
history with the federal cavalry, we could not help being rather 
underwhelmed by that negotiation maneuver.
    What Keeps Self-Governance From Expanding? By FY 2019, the 
Department of the Interior anticipates it will have entered into 
compacts serving over 270 tribes through about 125 separate funding 
agreements each year covering an estimated $500 million. About $ 160 
million of that is comprised of funds appropriated directly to the BIA 
and the balance are funds transferred through BJA to Indian tribes from 
the Departments of Transportation, Labor, and Health and Human 
Services. By all accounts, self-governance has been successful in 
improving both the quality and quantity of services provided at the 
tribal level and in assisting tribal governments in developing 
administrative and managerial skills and acumen that are transferable 
to other tribal efforts to create sustainable tribal economies.
    So, after 30 years, why aren't more of the 573 federally-recognized 
Indian tribes participating? And why is only $ 160 million of the BIA's 
annual $2.4 billion appropriation being transferred to Indian tribes 
under self-governance authority? And why, after 30 years is the 
mandatory reach of tribal self-governance authority still limited only 
to BIA and not to the U.S. Fish & Wildlife Service, the National Park 
Service, the Bureau of Land Management, and the rest of the Department 
of the Interior? Has Tribal Self-Governance stalled-out?
    One answer may lie in the 18 year, energy-depleting battle we've 
been fighting to enact the Title IV amendments, which this Committee 
last week once again favorably reported in the form of S. 2515. The 
marathon battle to enact these changes, which for the most part simply 
mirror the excellent, tribally-driven changes the U.S. Congress applied 
to IHS Tribal Self-Governance 18-years ago, has diverted tribal 
energies away from the battle to expand the application of tribal self-
governance authority.
    Another reason may be that the focus given by tribal leaders to the 
task of creating the tribal self-governance movement in its first 
decade or two has become diluted by the many other areas of growth in 
Indian Country since the 1990s. In contrast to this competition of 
interests, self-governance in its early days was the constant theme of 
its boosters on Capitol Hill, when nearly everything our congressional 
allies did on federal Indian policy was infused with self-governance 
themes. Today, the federal Indian policy small diner of the 1980s and 
1990s has turned into a mega-buffet with self-governance now one of 
hundreds of items vying for a place on the congressional plate.
    We are not, however, without hope for renewed growth and support 
for tribal self-governance. If reclaimed, the original meaning and 
intention of self-governance would be directly relevant to every item 
on today's buffet line of federal Indian policy. In every aspect of the 
federal-tribal relationship, only the Congress with its plenary power 
can write federal statutes across every federal program and every 
federal agency that curb the power and ability of federal agencies and 
officials to interfere with tribal program authority, shifting power 
and authority from federal to tribal government hands. There is much 
more that can be done.
    Thirty Years of Conclusions. Almost exactly ten years ago, I 
offered testimony to this very same Committee at a hearing entitled 
``The Success and Shortfall of Self-Governance Under the Indian Self-
Determination and Education Assistance Act After Twenty Years.'' Much 
has changed since then. Much has not.
    While this Committee has once again reported out the Title IV 
tribal amendments, in the form of S. 2515, the aptly-named PROGRESS For 
Indian Tribes Act of 2018, these amendments have yet to pass both the 
Senate and House in the same Congress and be signed into law. Will that 
finally change this year?
    And while there are decades of experience and strengthened tribal 
capability and interest in self-governance, Congress has not expanded 
mandatory self-governance authority to other agencies within the 
Interior Department, to agencies in other federal departments other 
than IHS, or even to the BIA's Central Office. Congress has so much 
more to do, and all kinds of reasons to do it. But first, Congress 
should immediately enact S. 2515 and once again put PROGRESS back into 
the self-governance word cloud of federal Indian law and policy.
    Mr. Chairman, and Members of this Committee, I am very proud of my 
Tribe's role over the past 30 years as a partner with you and your 
predecessors in the U.S. Congress as together we have shaped federal 
policy in support of tribal self-governance. This has led to 
unparalleled success for Mille Lacs Band and many other Indian tribes 
and no tribal mismanagement scandals anywhere near the scale of waste, 
inefficiency, and ineffectiveness that plagued the BTA and induced your 
predecessors to give tribal leaders a chance to show we could do 
better. We have. And, with your participation, we seek to do far more 
in the next 30 years.

    The Chairman. Thank you, Chairman Benjamin.
    Chairman Floyd.

   STATEMENT OF HON. JAMES FLOYD, PRINCIPAL CHIEF, MUSCOGEE 
                         (CREEK) NATION

    Mr. Floyd. Thank you, Mr. Chairman and members of the 
Committee. It is a pleasure to be asked to come and speak this 
afternoon.
    I would add we have reviewed the Progress Act and are very 
supportive of that. We appreciate the movement that it has made 
through the Committee.
    I would like to begin by talking a bit about the Muscogee 
Creek Nation. We are the fourth largest federally-recognized 
tribe in the United States with more than 85,000 members. Our 
area encompasses 11 counties in the mid central part of the 
State of Oklahoma, approximately the size of the State of New 
Jersey.
    Our progress in self governance really began with the 
Indian Self-Determination Act and contracting. It parallels my 
career as well. I first went to work for the Muscogee Creek 
Nation in 1978. We were putting plans together to contract from 
the Indian Health Service. We were one of the first tribes in 
the United States to contract an entire service unit consisting 
of a hospital and three outpatient clinics from the Indian 
Health Service.
    I kind of learned that part, left the tribe and then had a 
Federal career built in the Indian Health Service and the 
Department of Veteran Affairs. I retired and am now back, in 
full circle, as the Principal Chief of the Muscogee Creek 
Nation.
    We would like to say we were one of the first tribes in 
self governance for the Department of Interior but we were not. 
We came onboard in 1992. We do have a compact for all the BIA 
functions of then area office and work very closely with the 
regional office as well.
    Overall, I think our experience has been very positive in 
the three years I have been Principal Chief. I like that self 
governance has given us both flexibility and stability. As you 
know, not having a budget and working off continuing 
resolutions, we have been able to continue our programs 
uninterrupted during this time. That has helped to take out a 
lot of concern among staff and those people we serve. There are 
many parts that have been very beneficial to us.
    Moving forward, I think there are things I see that should 
be expanded. That is why I am excited by the Progress Act 
because I think besides providing the service to the people, it 
adds accountability. I think we should be proud to show we are 
accountable for the money we receive.
    Looking at the Department of the Interior, there are 
certain things I think we can improve upon. One is the benefit 
we have as self-governance tribes is that we can have 
stability, as I mentioned, and carry forward funds.
    With the BIA, I see that at the end of the year, unspent 
monies are kind of cast out for grants to tribes. I think, in 
lieu of us generating proposals each year, that should be 
turned over to shares and we negotiate the shares or that be 
distributed, essentially how they are now among the tribes.
    I think that would provide even more efficiency and 
eliminate some of the work we see right now to distribute the 
money that remains at the end of the year.
    I think also as we go forward, we would like to see more in 
terms of possibly joint ventures, especially with the education 
programs. We rely upon BIE for quite a bit of our funds for 
students.
    Among the Five Civilized Tribes, four of us operate 
boarding schools. We do have some facilities that need to be 
upgraded. In addition to the BIA funds, the BIE funds, we have 
put in tribal funds. I think it naturally lends itself to joint 
venturing so we can maintain the standards we feel obligated to 
provide to our students.
    Last year, 100 percent of our seniors in our boarding 
school graduated. We are proud of that. We hope we will have 
the same again this year. I think that would add stability as 
well to the education component of it.
    We appreciate the roads money. We would like to see that 
expanded as well, particularly with the Department of 
Transportation.
    Mr. Chairman, that concludes my time. I would be glad to 
answer any questions you might have. Thank you.
    [The prepared statement of Mr. Floyd follows:]

   Prepared Statement of Hon. James Floyd, Principal Chief, Muscogee 
                             (Creek) Nation

    Good Afternoon Chairman Hoeven, Vice Chairman Udall, and 
Committee Members. It is my pleasure to be before you today to 
share the Muscogee (Creek) Nation's Self-Governance success 
story. This hearing is well timed as the Committee has just 
advanced the PROGRESS for Indians Act which modernizes Title IV 
of the Indian Self-Determination and Education Assistance Act 
and others weigh expansion of those Self-Governance tenets to 
other federally operated programs within the Departments of 
Agriculture and Health and Human Services.
    Self-Governance changes the governing landscape for tribes, 
it providing tribal leaders with choices to expand services, to 
serve more citizens, and tailor opportunities based on local 
needs through innovative programmatic delivery, administrative 
efficiencies, and coordinated services. Muscogee (Creek) Nation 
has leveraged the flexibility within the program to provide 
expanded burial assistance services, to support additional 
child welfare and family programs, to offer policing services, 
and to execute complex land, title and record transactions. 
Though the Muscogee (Creek) Nation has several great examples 
where Self-Governance has improved the delivery of federal 
programs for Muscogee citizens and other tribal citizens, today 
I am going to focus on the success of our Law Enforcement and 
Realty Department.
    The Muscogee (Creek) Nation is the fourth largest federally 
recognized Tribe in the United States with a total population 
of 85,501 tribal citizens--more than half of whom live within 
the tribal jurisdiction. MCN tribal headquarters are centrally 
situated within the Nation's jurisdiction in the city of 
Okmulgee. The service area consists of urban, rural, and very 
remote areas and population densities vary from fewer than 
fifty (50) residents, to Tulsa, one of the largest urban areas 
within the State of Oklahoma. The Muscogee (Creek) Nation's 
Lighthorse Police Department (``Lighthorse'') patrols and 
polices the entire MCN jurisdiction, which covers eleven (ll) 
counties and nearly 5,000 square miles in the east central part 
of the state of Oklahoma.
    Without Self-Governance, Muscogee (Creek) Nation would have 
to rely solely on the Federal Bureau of Investigations to 
patrol, police and investigate crime on tribal and individual 
trust and restricted properties. The sheer size of the Nation's 
needs greatly outweigh the human and capital resources 
available in the Muskogee Satellite Office. However, Self-
Governance provides base funding to support the Criminal 
Investigation Division within the Lighthorse Police Department 
and empowers the Nation to work with other police departments 
to enhance the safety of communities across the entire 
jurisdiction.
    The MCN Lighthorse Police Department employs more than 65 
people, including 42 sworn officers, 12 reserve officers, and 
several criminal investigators who are responsible for 
patrolling an area larger than the state ofNew Jersey. MCN 
Lighthorse has primary policing responsibilities over all 
tribally-owned, restricted and trust properties totaling more 
than 150,000 acres, including 25 individual MCN Indian 
communities, 9 gaming and 9 tribal health facilities, five 
tribally-owned housing properties, many tribal offices and the 
College of the Muscogee Nation.
    To best service MCN communities and assist cities within 
the Nation jurisdiction, Lighthorse maintains Cross 
Deputization Agreements with non-tribal law enforcement 
agencies across the MCN original jurisdiction, including county 
and city police departments. These Agreements allow Lighthorse 
officers, local law enforcement officers, state, county, and 
federal officials to cooperatively manage active scenes and 
provide policing services when necessary. Current Agreements 
include police departments for the cities of Tulsa, Bristow, 
Okmulgee, Morris, Dewar, Eufaula, Wetumka, Holdenville, Okemah, 
Weleetka, and the Sheriff Offices of Wagoner and Mcintosh 
Counties.
    An active Jaw enforcement division is foundational for any 
government, but for Tribal governments it is the only way to 
protect its citizens in an ever-growing and complex 
jurisdictional environment. Another critical function for 
tribal governments is related to land ownership, protection, 
and management as performed by the Nation's realty office. For 
nearly 22 years, the Muscogee (Creek) Nation has operated the 
Land, Title and Records Oftice functions. These functions are 
crucial to the Nation's restricted and trust property owners 
and essential to the economic vitality of tribal nations.
    The Nation's Realty Department is the repository of 
information related to all trust and restricted property within 
the jurisdiction. The Department employs seventeen individuals 
to maintain land ownership records, to provide Title Status 
Reports, to execute and oversee all trust and restricted 
property leases, to assist citizens in the probate process, to 
perform onsite inspections and surveys, and to approve right-
of-way and easements. The Nation's performance of nearly all 
matters related to trust and restricted property removes many 
bureaucratic barriers for tribal citizens and the tribal 
government.
    The Realty Department houses all records related to 
restricted property onsite, which allows realty employees to 
research and provide available docwnents upon requests of a 
tribal citizen on the same day. The speed in document recovery 
and one-on-one assistance provided is critical during a 
family's probate procedure or leasing process. It also helps 
protect the interests of individual land owners, while provide 
clear and concise information to tribal landowners. The 
Department not only provides critical information to Muscogee 
citizens, it also maintains and sources records for the Bureau 
of Indian Affairs, oil and gas companies, and other 
municipalities. Maintenance of the land and title records 
within the Nation is a time intensive process that requires 
regular manual updates because the BIA system cannot currently 
support restricted land ownership. As such, Muscogee (Creek) 
Nation subsidizes the funds provided by the Department of the 
Interior to ensure that citizens and third parties have 
adequate and timely access to essential land records.
    Since Muscogee (Creek) Nation first signed is compact more 
than twenty years ago, tribal leaders before me have worked 
persistently to create, maintain, and expand essential 
government functions. Today, like other governments, the Nation 
searches for opportunities to provide better services when, 
where and how citizens need them. Only through Self-Governance 
can I and others continue to pursue the goals leaders set 
before Congress in 1988 and only with your support can Tribal 
governments continue to claim their space among the family 
governments. I look forward to working this Committee and 
others to ensure that Tribes can continue serve the best 
interests of their citizens. Thank you for this opportunity. I 
am happy to answer any questions you may have.

    The Chairman. Thank you, Chairman Floyd. We appreciate it.
    Governor Hisa.

 STATEMENT OF HON. CARLOS HISA, GOVERNOR, YSLETA DEL SUR PUEBLO

    Mr. Hisa. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall and members of the Committee.
    My name is Carlos Hisa. I am the Governor for Ysleta del 
Sur Pueblo. I have served in the capacity of Lieutenant 
Governor or Governor for close to 20 years now.
    Before I go on, according to custom, may I introduce people 
here with me? Here with me is Councilman Candelaria and Linda 
Austin, Director of Operations. She is also here to help me 
answer some of the questions. She is the one who spearheads our 
self governance and data collection. I asked her to come along 
in case I get stuck for some reason.
    You were provided a copy of my testimony. I am not going to 
read from it. It tells you a bit of the history of the Pueblo, 
where we come from as a people and our struggles in the past, 
our journey into self governance, the reason and why we focused 
on collecting data to make our decisions as a community to 
prioritize and go out and fund projects.
    Our transition into self governance was a smooth one. We 
were recognized in 1987 as a Federal tribe. We always operated 
similar to self governance. BIA was at a distance from us. They 
really entrusted us to manage our programs.
    When we decided to move forward and do a conversion into 
self governance, it was a smooth one. We identified the need to 
go to self governance but also we identified that the tribe was 
operating in a way that was not really productive.
    We were chasing grants. We were out there chasing money and 
implementing programs not really created specifically for our 
community and our people. We decided to stop doing that and 
find a way to identify and prioritize our needs and fund them.
    In addition to going to self governance, in conjunction 
with that, we developed a program to capture data and use this 
data to go out there and identify the internal needs and be 
able to use self governance monies to fund these projects.
    If the money was not available through Federal assistance 
or programs, we needed to find other means to operate which is 
why we also include economic development as part of our study 
to reach out and get the information.
    Throughout the years, we have slowly improved the way we 
gather information. We also provide you with a copy of our last 
social economic profile which identifies what we used to 
prioritize the needs for the community.
    We use the Census model questionnaire that is done every 
ten years in the United States to sort of mirror our questions. 
We did that because to be able to compare where we stand as a 
Nation compared to the United States, compared to the county of 
El Paso and the City of El Paso.
    We use these measurements to measure our success with our 
programs once we identify the need. Self governance has really 
turned the Pueblo around. We have identified the needs and 
focused on them. We have found a way to grade ourselves and 
hold ourselves accountable to be able to share our priorities 
with the community and move forward together as a Nation as we 
should.
    We support your efforts. We want to say that we stand 
behind you in pushing these efforts in self governance. It is a 
good thing for Indian Country.
    I would recommend that every funding agency out there or 
government agency adopt self governance and allow tribes to 
determine what is good for them and where they need the money 
to go, depending on the programs.
    I am open to any questions. Thank you.
    [The prepared statement of Mr. Hisa follows:]

Prepared Statement of Hon. Carlos Hisa, Governor, Ysleta Del Sur Pueblo
    Good afternoon, Chairman Hoeven, Vice-Chairman Udall, and Members 
of the Committee. I am Carlos Hisa, Governor of the Ysleta del Sur 
Pueblo located in El Paso County, Texas. For the past 18 years I have 
served as Governor and Lt. Governor of the Pueblo. My term of office is 
one year. I am accompanied by Linda Austin, Director of Operations, who 
coordinates both self-governance and data management initiatives for 
our Pueblo. I am here today to share how data management has been an 
important piece in our self-governance journey. More specifically, I 
want to share that our notoriety has been an evolutionary process since 
our federal recognition in 1987.
Brief History of YDSP
    YDSP is one of three federally recognized Native American tribes in 
Texas, and the only Pueblo. During the period of early Spanish 
settlement (1598-1680), relations between the Pueblo Indians and the 
Spaniards were strained, which brought fierce oppression of all Pueblo 
people. In 1680, New Mexico Pueblo Indians rebelled against the 
Spaniards. This caused many tribal factions to relocate to modern day 
northern New Mexico and west Texas, which includes the Tigua region. 
The Tigua people of Ysleta del Sur were industrious farmers who raised 
wheat, corn, cattle, and horses. The Tigua were also instrumental in 
building the Ysleta Mission. Today, Ysleta, Texas has been home to the 
Tigua people for over 300 years. That said, YDSP is the oldest 
community in the State of Texas as well as the oldest running 
government in the state since its establishment in 1682. The Pueblo's 
culture continues to flourish as each generation proudly promulgates 
its heritage. At the end of 2017, the YDSP population was 4,226.
YDSP Data Management Philosophy
    The Pueblo's data management philosophy is better understood when 
coupled with our self-governance framework. Self-Governance is 
fundamentally designed to provide tribal governments with control and 
decisionmaking authority over the federal financial resources provided 
for the benefit of Indian people. From its federal recognition in the 
late 1980s, YDSP did not experience the traditional BIA contract 
support--typically the BIA would administer direct services such as 
enrollment, social services, education, and others. However, we assumed 
the responsibilities exclusively to create and maintain these direct 
services. Thereby, the Pueblo unknowingly initiated self-governance 
principles to address needs with limited resources. Not only was the 
Pueblo strategic in its design of its government, but also provided the 
experience to create and maintain its own data management systems. In 
short, the 2013 transition to self-governance for our Pueblo was 
seamless. At the time, YDSP was the 252nd tribe (out of 567) to join 
self-governance and only one of five Pueblos in the Southwest Region.
    One of the tenets of self-governance is that it empowers tribes to 
prioritize needs and plan growth at their own tempo, in accordance with 
their unique cultures and traditions. One approach to prioritizing 
needs is to conduct community assessments on a regular basis. By 
embracing this philosophy, YDSP has realized material and substantial 
gains in its efforts to advance the socioeconomic and health outcomes 
of its citizens.
YDSP Data Driven Outcomes
    Some of YDSP's more recent outcomes and successes can be attributed 
to its data administration practices. These practices have driven the 
Pueblo's management decisions effectively in planning, securing future 
funding, and resource allocation. For example, the Pueblo engaged in 
enrollment reform to remove blood quantum requirements in the 2000s 
which doubled the population. To prepare for the financial 
implications, YDSP conducted a budget study to determine the financial 
impact on direct services resulting from the potential population 
surge. This study highlighted the financial shortages especially 
related to health services and became the impetus for a healthcare 
planning study that ultimately led the Pueblo to apply for the Indian 
Health Service (IHS) Joint Venture Program. The Joint Venture Program 
enables tribes to construct new healthcare facilities with tribal 
funds, while IHS funds the staffing costs for the life of the program.
    In addition, YDSP began publishing formal socioeconomic profiles of 
its citizenship in 2008. The most recent profile is the 2016 assessment 
and, like the others, serves as a periodic snapshot of the Pueblo 
containing an array of indicators such as education levels, employment, 
household size, and income. These data, and subsequent findings, are 
employed as a foundation for policy and/or resource management 
decisions. YDSP leads these efforts given that secondary data sources, 
such as the U.S. Census Bureau and other governmental agencies, often 
do not accurately reflect the Pueblo's characteristics and traits. 
Rainie et al. (2017) states that the ``Indigenous nations in the United 
States face a 'data landscape' marred by sparse, inconsistent, and 
irrelevant information complicated by limited access and utility'' (1). 
The YDSP Socioeconomic Profile aims to bridge these data gaps. Further, 
in the spirit of self-governance, it is imperative that tribal nations 
lead their own data studies to capture the nuances and culturally 
sensitive issues inherent to only them. \1\
---------------------------------------------------------------------------
    \1\ References: Rainie, SC, Schultz, JL, Briggs, E, Riggs, P, and 
Palmanteer-Holder, NL. 2017. ``Data as a Strategic Resource: Self-
determination, Governance, and the Data Challenge for Indigenous 
Nations in the United States.'' The International Indigenous Policy 
Journal, Volume 8, Issue 2.
---------------------------------------------------------------------------
    YDSP's 2012 Socioeconomic Profile was successful in engaging Pueblo 
members and outlining its socioeconomic status. It played an important 
role, helping to assess needs and develop goals and objectives that 
drove grant writing efforts to support new programs and services while 
informing Pueblo leadership of current needs. The 2012 study employed a 
survey instrument, entitled Tribal Member Questionnaire, that has 
evolved since its inception in 1997. Building on these experiences, the 
Pueblo was able to revise and modernize the 2016 socioeconomic study. 
The questionnaire was updated to revise survey items and modernized to 
streamline the data collection process. The Pueblo leading its own 
studies has had several key advantages such as utilizing stakeholder 
feedback to ensure methodologies and processes are culturally relevant 
and sensitive.
    The 2016 Socioeconomic study's findings indicated that the Pueblo 
has made strides in improving its socioeconomic status. For example, 
the percent ofYDSP members with bachelor's degrees or higher has 
dramatically improved. In 2016, those reporting the same educational 
attainment notably increased--15 percent of YDSP members 25 years and 
older earned bachelor's degrees or higher compared to approximately 7 
percent in 2008. While the improvement is encouraging, this remains 
half of state and national counterparts. Further, the 2016 study 
revealed that approximately 30 percent of YDSP members have attended 
college, however, they had not completed their degrees. A later 
analysis suggested that many of these members had dropped out. This in 
turn has prompted the Pueblo to reexamine how it supports members who 
are interested in going to college beyond financial assistance alone. 
In other words, the Pueblo is investing resources into developing a 
case management approach where YDSP staff will coach, mentor, and 
monitor higher education students.
    The findings have identified and substantiated education needs, 
thus making higher education attainment a priority. It is understood 
that lower educational attainment most likely influences other factors 
such as income, financial security, and overall quality of life. 
Prioritizing education remains at the forefront of the Pueblo's agenda 
as evidenced by investing in both continuing educational programming 
and creating high quality early learning programs. These programs aim 
to mitigate barriers to financial security while creating safe and 
stable households. Equally important, the Pueblo's economic development 
efforts--such as our Speaking Rock Entertainment Center--can create 
different avenues to achieve similar outcomes. Speaking Rock has been a 
true success story in our self-governance journey despite the State of 
Texas Attorney General's unwavering grievances. It is unfortunate that 
the State does not fully recognize us as a sovereign. These challenges 
obstruct our pathway to self-sufficiency. Thus, it is imperative that 
each sovereign collaborate in harmony to harvest the community's 
fullest potential.
Conclusion
    Ysleta del Sur Pueblo embodies the principles of self-governance. 
From its data management to resource allocation to service delivery, 
the Pueblo implements self-governance strategies to design future 
programs to address today's needs. The Pueblo's vision for the next 30 
years holds no barriers to the success it stands to achieve. Tribes 
perform better when they set their own trajectories, allocate their own 
resources, and establish priorities based on tribal data and needs. It 
is also a tool to broaden self-determined efforts to spark innovation, 
courage, and resiliency. Self-governance is not a program with a 
beginning and end, it is paradigm shift that changes the thinking of 
status quo to that of endless potential. In essence, self-governance 
works when making data driven decisions.

    The Chairman. Thank you, Governor Hisa.
    I would turn to Senator Lankford. Did you want to offer a 
greeting before we have our final witness?

               STATEMENT OF HON. JAMES LANKFORD, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Lankford. I did. I appreciate that, Mr. Chairman.
    I am, like several of us, on three different committees and 
three different times right now and having to bounce back and 
forth to be able to connect and pick up bits and pieces.
    I did want to do both a greeting and a formal introduction 
of Principal Chief Floyd. It is good to see you again. We have 
the opportunity to be able to see each other back home in 
Oklahoma, but it is good to see you here.
    Chief Floyd has been a great leader for a great tribe. The 
experience you bring here, both from what the tribe has done 
for so long with self governance and be able to bring that 
insight here is very valuable, not just in this conversation 
but your experience working before, as you mentioned, for so 
long in so many different entities and to be a pioneer in this 
area.
    The Muscogee Creek established one of the earliest 
hospitals, if not the first, to be able to work and take care 
of health care issues. The College of the Muscogee Nation is an 
accredited college and doing extremely well.
    That is something you did not mention in your testimony but 
I need to tell you that you need to lead with that because some 
remarkable education is going on there and also some of the 
things you continue to do. The interior system and cultural 
preservation, all those things have been exceptionally 
valuable.
    I am grateful to see you here. Thanks for bringing your 
testimony today.
    Mr. Floyd. Thank you, Senator Lankford.
    The Chairman. Thank you, Senator Lankford.
    President Blazer, proceed with your testimony, please.

STATEMENT OF HON. ARTHUR ``BUTCH'' BLAZER, PRESIDENT, MESCALERO 
                          APACHE TRIBE

    Mr. Blazer. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall, and members of the Committee.
    My name is Butch Blazer and I serve as President of the 
Mescalero Apache Tribe located in southern New Mexico. Thank 
you for this opportunity to testify.
    I would also like to extend a special thank you to Senator 
Udall for his efforts on behalf of the Mescalero people and the 
rest of Indian Country.
    While Mescalero did not embrace Indian self determination 
programs or tribal self governance programs at first, we have 
entered into a number of BIA self-determination agreements over 
the years. Expanding self governance and self determination 
authority beyond BIA and the Indian Health Service to programs 
at USDA would strengthen tribal sovereignty and help preserve 
Native culture.
    Our lands and our culture are fundamental to our way of 
life. Equally important is our connection to our ancestral 
lands now administered by Federal agencies like the U.S. Forest 
Service.
    Our original reservation boundaries encompassed what is now 
the Lincoln National Forest and nearby Bureau of Land 
Management lands. Our reservation shares more than 40 miles of 
common border with them.
    We have always maintained strong ties to these lands. We 
continue to gather plants and conduct ceremonies in the Lincoln 
National Forest. Evidence of our connections is found 
throughout the forest from rock art to our mescal pits. The 
mountains in Lincoln are sacred to our people.
    In addition, since 1960, we have managed the Ski Apache 
Resort located in the Lincoln National Forest under special use 
permits. We invested nearly $20 million to improve the resort 
and develop year round recreation, including world class zip 
lines.
    Ski Apache generates 350 jobs, very important jobs for our 
people and contributes millions to the local economy.
    We have worked with the Bureau of Indian Affairs for more 
than a century to make our forestry program one of the best in 
the Nation, maintaining a healthy tribal forest on a shoestring 
budget.
    However, the 2012 Little Bear fire showed us that poor 
conditions on Federal lands endanger our forests. Our assets at 
Ski Apache and our sacred places, as I mentioned earlier, are 
in the forests.
    The fire started with a lightning strike in the Lincoln. 
The Forest Service viewed it as a non-threatening fire and 
allowed it to smolder. The fire exploded and raged through the 
resort and to tribal lands. The fire burned more than 44,000 
acres and destroyed 255 homes. Damages exceeded $100 million. 
It could have been worse.
    In 2008, the tribe completed a hazardous fuels reduction 
project on the Eagle Creek portion of the reservation. As the 
Little Bear fire spread, the previously treated Eagle Creek 
area provided space to turn the fire away helping to avoid 
complete devastation of the nearby village and local source 
waters.
    Congress passed the Tribal Forestry Protection Act of 2004 
to prevent exactly this type of threat posed by the unhealthy 
Federal lands near Indian Country. Mescalero uses the Act to 
treat Lincoln National Forest lands along our shared boundary, 
preserve our ancestral homelands and improve our relationship 
with the Lincoln.
    However, our stewardship contract ended far too early. It 
was limited in scope and just did not fit. We were required to 
enter a goods-for-services contract basically as a vendor. The 
contract did not recognize tribal sovereignty.
    Today, I ask you to expand the Tribal Forest Protection Act 
to authorize tribal agreements with the USDA and the Bureau of 
Land Management. This proposal is supported by many tribes 
across the country.
    Legislative language to accomplish this goal is included in 
the House version of the 2018 Farm Bill. My written testimony 
contains suggestions to further strengthen that House Farm 
Bill. Expanding self determination and self governance to 
Forest Service programs will create synergies to better 
leverage limited resources and help to ensure the tribes, 
Forest Service, States and local governments better collaborate 
on forest-related issues.
    I truly understand the importance of collaborative efforts 
from when I served as the first ever Native American State 
Forester for New Mexico.
    Thank you.
    [The prepared statement of Mr. Blazer follows:]

    Prepared Statement of Hon. Arthur ``Butch'' Blazer, President, 
                         Mescalero Apache Tribe
Introduction
    Good afternoon Chairman Hoeven, Vice Chairman Udall and Members of 
the Committee. My name is Arthur ``Butch'' Blazer. I am President of 
the Mescalero Apache Tribe (Mescalero Apache or Tribe). Thank you for 
this opportunity to testify on the past success and the future of the 
Tribal Self-Governance program.
Background: the Mescalero Apache Tribe
    Long before the first European settlers came to this land, our 
Apache ancestors roamed the Southwestern region, from Texas to central 
Arizona and from as far south as Mexico to the peaks of Colorado. Our 
four sacred mountains: White Mountain/Sierra Blanca, Guadalupe 
Mountains, Tres Hermanas/Three Sisters Mountains, and Oscura Peak, 
protected our Nation and nourished our people. We traveled the rough 
Apacheria through mountains and deserts but always returned to our 
sacred White Mountain.
    As Europeans began to encroach on our ancestral homelands, the 
Mescalero Apache Tribe entered into the Treaty with the Apaches with 
the United States on July 1, 1852. The Treaty promised the Tribe a 
permanent homeland on small portion of our aboriginal territory. The 
Mescalero Apache Reservation (Reservation) was later established by a 
succession of Executive Orders in the 1870s and 1880s. Our Reservation 
spans 720 square miles (460,405 acres) across south-central New Mexico 
and is home to approximately 5,000 tribal citizens and 200 non-Indian 
residents.
    The original Reservation boundaries encompassed lands that are now 
held in federal ownership, including the Lincoln National Forest (LNF) 
and Bureau of Land Management (BLM) lands bordering our Reservation. 
The Mescalero Apache people have maintained strong ties to these 
ancestral homelands. We continue to gather plants important to our 
traditions and conduct ceremonies on adjacent and nearby federal lands. 
To strengthen our ties to these lands and to exercise input into their 
management, the Tribe has entered into Memoranda of Understanding 
(MOUs) with federal agencies, including the U.S. military and U.S. 
Forest Service (USFS).
Indian Self-Determination and Tribal Self-Governance
    While the Mescalero Apache Tribe did not initially embrace Indian 
Self-Determination or Tribal Self-Governance, we have entered into a 
number of Self-Determination contracts with the Bureau of Indian 
Affairs (BIA) over the years, including agreements to operate our 
tribal forestry program and tribal court system.
    Our leadership, like many treaty tribes, believes that the Treaty 
our ancestors signed with the United States, ceding vast areas of our 
ancestral homelands, compels on the United States sacred obligations to 
provide for the general health and welfare of our people. Far too 
often, the United States has directly abrogated or ignored these solemn 
treaty promises.
    Congress enacted the Indian Self-Determination and Education 
Assistance Act of 1975 (ISDEAA) and later the Tribal Self-Governance 
Demonstration of 1988 (TSG) to offer tribal governments greater control 
over federal programs and services designed to meet the United States' 
treaty and trust obligations to Native communities. While these 
mechanisms sometimes ask Indian tribes to do more with less, the 
programs have improved over the years--thanks in large part to Supreme 
Court decisions that force the government to fully fund contract 
support costs, and congressional appropriations that have implemented 
those decisions.
Expand Indian Self-Determination and Tribal Self-Governance to USDA
    USDA administers a wide range of programs and activities that 
directly impact Indian tribes and tribal lands. Many USDA programs lend 
themselves well to tribal management under contracting and compacting 
authority. My testimony today focuses on expanding Self-Determination 
and Self-Governance authority for tribal governments to enter 
agreements with USDA-Forest Service. However, as noted below, we also 
urge Congress to consider extending Self- Determination and Self-
Governance authority to a wide range of USDA programs.
    Regarding federal forests, USDA has acknowledged that the vast 
majority of federal forest lands are carved out of the ancestral 
homelands of Indian tribes. The historical and spiritual connection of 
tribes to federal lands was never extinguished. Treaties, federal court 
decisions, Executive Orders, laws, and regulations affirm the retained 
right of Indian tribes to hunt, fish, gather, and access sacred places 
and exercise Native religion on off-reservation federal lands.
    As noted above, the Mescalero Apache Tribe's initial Reservation 
and ancestral homelands include the Lincoln National Forest and nearby 
BLM lands. Evidence of our connection to LNF is found throughout the 
Forest, from rock art to mescal pits to the Apache Trail, which was a 
prime route for water in the Sacramento Mountains. These Mountains are 
home to the Mountain Spirit Dancers--holy beings that ensure our well-
being. In addition, the Tribe has invested significant resources in Ski 
Apache, a resort owned and operated by the Tribe pursuant to a special 
use permit. Ski Apache is located on LNF lands bordering our 
Reservation.
    Because of these historic ties and investments, the Mescalero 
Apache Tribe and many Tribal Nations similarly situated hold 
considerable interest in co-managing these nearby federal lands. One 
method of enhancing tribal control and management of such lands would 
be to enhance the Tribal Forest Protection Act to authorize USDA-Forest 
Service to enter into Self-Determination contracts or Self-Governance 
compacts with Indian tribes.
Mescalero Apache Forest Management Practices on Tribal and Federal 
        Lands
    For centuries, the Mescalero Apache Tribe has managed our forests 
holistically to promote the growth of food and medicinal plants, to 
manage the wildlife in our forests, and to protect our lands from 
invaders. We view our forest as a dynamic living entity. It provides 
water, food, shelter and a means of employment and revenue for Tribal 
citizens. Today, the Mescalero forest remains one of the best-managed, 
healthiest forests in the Southwest.
    Operating on a shoestring budget, the Tribe's Division of Resource 
Management and Protection has been able to provide high quality 
forestry services on the Reservation. While the local BIA agency 
oversees the overall management of the forest on the Reservation, many 
of the projects, such as thinning for hazardous fuels reduction and 
timber marking, are completed by the Tribe.
    The progressive working relationship with BIA Forestry and the 
implementation of ISDEAA contracts to take on some forestry services 
has allowed the Tribe to ensure continued success in forest management.
    The Tribe has treated approximately 42,000 acres, out of a total 
Reservation land base of 460,405 acres, through commercial harvest. 
Through funding allocated under the Interior Department's National Fire 
Plan and other federal programs starting in 1999, the Tribe has treated 
an additional 59,094 acres through hazardous fuels reduction projects.
    While the Tribe has worked hard to maintain a healthy forest on our 
Reservation, for many years Tribal leadership has been concerned about 
the very dense forest conditions in LNF, which borders our Reservation 
on three sides. Due to the unhealthy condition of the LNF, we have seen 
the escalation of insect populations, including bark beetles and other 
defoliators on the Reservation, and have watched as large swaths of 
USFS lands die around us.
Lessons Learned from the Little Bear Fire of 2012
    The Little Bear Fire of 2012 provided a prime example of the 
benefits of strong tribal government forest programs, and the need to 
strengthen tribal government management of federal lands.
    The Little Bear Fire started modestly on June 4, 2012. Lightning in 
the White Mountain wilderness in LNF sparked the initial small fire. 
Over the first five days, LNF deployed relatively few assets to contain 
what it thought was a non-threatening forest fire. Firefighters worked 
only day shifts, air tanker resources were not utilized and helicopter 
water drops were minimal. On the fifth day, the fire jumped the 
fireline and high winds turned the fire into an inferno. That evening 
the fire blazed through the Ski Apache Resort, and crossed onto Tribal 
lands.
    Within two weeks, the Little Bear Fire burned 35,339 acres in LNF, 
8,522 acres of private land, 112 acres of state land and 357 acres of 
the Reservation. The fire also destroyed more than 255 buildings and 
homes in the region and burned 44,500 acres of prime watershed. The 
overall estimated cost of the fire, including suppression and damages, 
exceeded $100 million. It could have been much worse.
    In 2008, the Tribe completed an important, cost-effective hazardous 
fuels reduction project on a portion of the Reservation called Eagle 
Creek. As the Little Bear Fire moved across the landscape, the 
previously treated Eagle Creek project area was used as a defensible 
space to turn the Little Bear Fire away from the steep, densely 
forested terrain of the North Fork of the Rio Ruidoso, and prevented 
complete devastation of the Village of Ruidoso source waters.
    A comparison of the impacts of the Little Bear Fire on the 
healthier tribal forests and much less healthy LNF provides ample 
justification to authorize USDA-FS to engage in Self-Governance 
contracting/compacting authority with Indian tribes to manage federal 
forests.
Ski Apache: Mescalero Apache Investments in the LNF
    Since 1960, the Tribe has leased approximately 860 acres of LNF 
lands under two special use permits to establish, manage, and operate 
Ski Apache. Ski Apache is located on the northern border of the 
Reservation.
    Over the past 58 years, the Tribe has made significant improvements 
to the Resort. Recently, the Tribe invested $15 million to triple the 
ski lift capacity at Ski Apache. In 2014, the Tribe invested more than 
$2.6 million for non-ski, year-round recreation at Ski Apache, 
including several world-class zip lines. Ski Apache employs up to 350 
people during the ski season and contributes millions of dollars to the 
local economy.
    Ski Apache incurred more than $1.5 million in damages from the 
Little Bear Fire. Because of the volume of trees that were burnt, there 
existed a real danger of flooding that could have destroyed buildings, 
completely re-shaped the existing ski runs, and taken out access roads. 
Due to additional investments and work conducted by the Tribe, major 
flooding was avoided.
    The Forest Service gave little consideration to the importance of 
Ski Apache or the overall local economy in its response to the Little 
Bear Fire and in its forest management plans. Closure of Ski Apache for 
a single season would devastate the economies of both the Village of 
Ruidoso and the Tribe. Despite the importance of Ski Apache, even after 
the Fire, LNF prioritized other areas for fire rehabilitation efforts 
instead of Ski Apache.
    Under the current arrangement, the U.S. Forest Service administers 
the lands that encompass Ski Apache and has the legal responsibility to 
respond to emergencies. However, it has been the Tribe that has acted 
as the primary first responder in many emergency situations.
    At the same time, the Tribe, as a permittee, is solely responsible 
for rehabilitation and all related costs. When it came to the Little 
Bear Fire, the Tribe first had to gain approval from LNF before taking 
such action. Ski Apache quickly submitted a request to LNF to begin 
rehab efforts. It took LNF months to respond. While, LNF committed to 
cleaning piles of burned trees, it took over 18 months for that action 
to occur. If the Tribe had not taken the initiative to protect our 
assets, they would have been lost in the Little Bear Fire.
    These delays would be avoided if the Tribe had an active Self-
Determination/Self-Governance agreement with the Forest Service. To 
protect our investments and our sacred places, the Tribe has a 
considerable interest in taking on a greater management role of the LNF 
and preventing future wildfires and resulting flooding that would 
devastate the Resort.
USDA--Forest Service Programs
    Congress enacted the Tribal Forest Protection Act of 2004 in 
response to devastating wildfires that crossed from federal onto tribal 
land in the summer of 2003. TFPA provides a tool for Tribes to propose 
work and enter into stewardship contracts and other agreements with the 
Forest Service or Bureau of Land Management to reduce threats on 
federal lands adjacent to Indian lands. The Forest Service alone shares 
approximately 2,100 miles of contiguous boundaries with Indian tribes. 
The TFPA authorizes the Secretaries of Agriculture and Interior to give 
special consideration to tribally-proposed projects on federal land 
bordering Indian trust land.
    From 2004-2008, only 10 TFPA contracts and agreements were awarded. 
These contracts and agreements covered 23,230 acres and 51.5 miles of 
boundary. USFS-tribal TFPA stewardship contracts have been limited in 
scope, focusing on hazardous fuels reduction and invasive species 
treatment. This disappointingly slow implementation of the TFPA 
continues to thwart the Act's intent, leaving tribal forests more 
vulnerable to catastrophic wildfire, disease and infestation from 
adjacent federal public lands. TFPA partnerships should be aggressively 
expanded.
    A case in point of the positive but limited impact of the TFPA is 
the stewardship contract that the Mescalero Apache Tribe entered into 
with the USFS.
    Through the ``16 Springs Stewardship Contract'' in 2006 with LNF, 
the Tribe conducted hazardous fuel treatment and reduction of more than 
6,300 acres of LNF lands mostly located along the shared boundary 
between our Reservation and LNF. Due to the Tribe's efforts, these USFS 
lands are much healthier now than they were before. Added benefits of 
the stewardship contract included strengthening connections with our 
ancestral homelands, the resulting improved relationship between 
Mescalero forest personnel and LNF staff, and gaining a better 
understanding of the management constraints placed on the LNF.
    However, the stewardship contract ended far too early. Many 
thousands of additional acres of dense forest within LNF remain 
untreated and continue to threaten the lives and property of Tribal 
members and the general public. Another major drawback of stewardship 
contracts is the contracting tool itself. We were required to enter 
into a ``goods for services'' contract, which does not recognize tribal 
sovereignty or the federal-tribal government-to-government 
relationship.
    Authorizing USDA to enter into Self-Determination contracts and 
Self-Governance compacts with Indian tribes will improve on the TFPA, 
providing stability and consistency to tribal government's ability to 
access and implement the program. Because the LNF and other nearby 
federal lands are part of our ancestral homelands, the Tribe must be 
able to offer meaningful input into the management of these lands that 
goes before and beyond NEPA. Tribes need to have a greater presence in 
the development of forest management strategies.
    To accomplish this goal, we urge Congress to take the TFPA to the 
next level--and expand the program to authorize Self-Governance-type 
contracts and compacts between Indian tribes and the U.S. Forest 
Service and BLM. Several recent bills include the authorization needed, 
including Sen. Daines' bill, S. 3014, the Tribal Forestry Participation 
and Protection Act (114th Congress), H.R. 2936, the House-passed 
Resilient Federal Forests Act (115th Congress), and Section 8403 of the 
Agriculture and Nutrition Act of 2018 (``the 2018 Farm Bill'') as 
introduced by House Agriculture Committee Chairman, Rep. Michael 
Conaway (R-TX).
    While the Mescalero Apache Tribe supports these provisions that 
would authorize Self-Determination/Self-Governance agreements with the 
USDA, we ask that bill text or report language be added to strengthen 
this proposal.
    The TFPA Self-Governance program should carefully limit the 
agency's ability to reject tribal requests to compact or contract. The 
program should also ensure that the work produced by the tribal-run 
program is incorporated into the agency's decisionmaking process. As 
with ISDEAA programs, the program should convey Federal Tort Claims Act 
protection to the tribe and tribal employees. And finally, the program 
should be fully funded--including the provision of all contract support 
costs.
    Once tribes are able to enter into contracts and compacts with 
USDA-FS, tribal governments and tribal government priorities will truly 
become a part of the agency decisionmaking process, which impacts the 
exercise of tribal treaty rights, protection of Native sacred places, 
and protection of tribal investments on federal lands.
USDA Food Assistance Programs
    Another area that lends itself to tribal Self-Determination and 
Self-Governance authority is the USDA's food assistance programs. The 
mission of USDA's Food Nutrition Service (FNS) is to improve food 
security and reduce hunger by providing children and low-income 
individuals access to food, a healthy diet, and nutrition education. 
FNS administers 15 Federal nutrition assistance programs.
    States (and in some cases local county governments), the District 
of Columbia, and at least some U.S. territories can directly manage FNS 
programs. FNS conveys a number of policy options that enable state 
agencies to adapt SNAP and other FNS programs. State agencies have 
developed innovative methods of integrating multiple human services 
programs, including using the same caseworkers for multiple programs to 
developing shared IT and eligibility systems. State and local 
governments also integrate SNAP with Medicaid, TANF, and other federal 
programs. This flexibility helps local governments better target 
benefits to those most in need, streamline program administration and 
field operations, and coordinate SNAP activities with those other 
federal need-based programs.
    As a result, States have flexibility to adapt their organizational 
structure to administer SNAP, which allows the States to serve the 
unique needs of their populations. States may opt to centralize or to 
decentralize their administrative responsibilities for SNAP, including 
deciding whether to administer the program at the State, county, local, 
or regional level.
    SNAP is by far the largest of the food assistance programs 
administered by UDSA. FNS legal authority does not permit Indian tribal 
governments to directly manage SNAP or a variety of other FNS programs. 
(Note: tribes are eligible to administer the Food Distribution Program 
on Indian Reservations, the Commodity Supplemental Food Program, and 
the Women, Infants, and Child program).
    Section 4004 of the 2014 Farm Bill, required USDA to review the 
feasibility of extending Tribal Self-Determination and Self-Governance 
to SNAP and several other USDA food assistance programs. USDA released 
its Final Report, ``Feasibility of Tribal Administration of Federal 
Nutrition Assistance Programs'', in July of 2016. https://fns-
prod.azureedge.net/sites/default/files/ops/TribalAdministration.pdf.
    The Report found that nearly all tribes participating expressed 
interest in administering federal nutrition assistance programs as an 
expression of sovereignty and to provide direct service to tribal 
citizens in need of food assistance. Tribes responded that the ability 
to provide flexibility in the management of nutritional quality of the 
food provided and culturally appropriate programming and service 
delivery were also critical. It also found that the great majority (70 
percent) of tribal governments had the needed experience to take on 
this authority. Tribal government experiences stemmed from longstanding 
Self-Determination and Self-Governance agreements with Interior 
agencies as well as administration of federal assistance programs 
offered by the Departments of Health and Human Services, Education, 
HUD, and other agencies.
    The U.S. Constitution acknowledges that Indian tribes are separate 
distinct governments, on par with the Foreign Nations and the Several 
states. The USDA's food assistance programs should acknowledge the 
governmental status of Indian tribes. Tribes should be afforded the 
ability to directly manage all federal nutrition and feeding programs. 
Elected tribal leaders and tribal program directors are best able to 
ensure that food security needs in their reservation, rural, and very 
remote communities are met. Allowing tribes to take over these 
functions from the federal government will improve efficiency, reduce 
regulatory burdens, and support tribal selfgovernance and self-
determination.
    This can be accomplished by either adding language modeled after 
the ISDEAA and TSG to authorize USDA to enter into contracts and 
compacts with federally recognized Indian tribes to active bills that 
seek to amend the ISDEAA (S. 2515 for example) and/or to the 2018 Farm 
Bill.
Conclusion
    We urge Congress to expand Self-Determination and Self-Governance 
authority to a wide array of USDA programs. Doing so will increase 
consistency and efficiency for tribes with all USDA agencies and 
programs and ensure tribal administration and control of the delivery 
of the wide array of these essential government functions.
    The Mescalero Apache Tribe believes that expanding contracting and 
compacting authority to USDA agencies and programs holds the potential 
to strengthen tribal sovereignty. Authorizing USDA-FS to enter into 
compacts and contracts with Indian tribes, like the Mescalero Apache 
Tribe, that have deep connections to federal forests will improve 
access and connection to tribal ancestral homelands, help protect 
tribal assets on federal lands, and better protect Indian reservation 
lands.

    The Chairman. Thank you.
    Now we will have five minute rounds of questioning. I will 
begin with Chairman Benjamin.
    You talked about expanding self governance and in your 
testimony, you also touched on accountability. My question is 
how do we make sure, as we provide more self governance, we 
also are making sure there is adequate accountability, 
particularly when Federal funding is involved?
    Ms. Benjamin. At the tribal level, if you look across 
Indian Country, we are required to do our audits, of course, 
and that would show how the money is being expended. Also, even 
through our programs for the Mille Lacs Band of Ojibwe, we have 
in-house financial responsibilities. We are set up with 
legislative, executive and judicial branches.
    Our legislative branch, there are always checks and 
balances for all the programs we do within the executive or 
judicial branches. There is that accountability at that level. 
Hopefully, at the Federal level, the OMB offices will set up 
those policies and procedures that all the different 
departments to follow as well. That is how our system is set 
up. It is very stringent.
    For me, as the Tribal Chair or Chief Executive, I cannot 
spend a penny unless there are checks and balances for me to 
move anything forward. I do believe a lot of those tribes have 
those kinds of policies and procedures mandated to be followed.
    The Chairman. Chairman Floyd, as someone who has worked 
with self governance, what further recommendations do you have 
for us as we work on the issue of self governance for tribes?
    Mr. Floyd. As we proceed to the next generation of it, I 
think with the Department of the Interior, BIA, HHS and the 
Indian Health Service, it is kind of cleaning up some of the 
things on which we may have differences.
    I think the chairperson talked about the inherent Federal 
functions. I think we have gotten through that for the most 
part but there are still funds we could take. Within the 
Muscogee Creek Nation, we do not operate any national parks or 
have any Forest Service land.
    Being a removed tribe from the southeast, forcefully 
removed to Indian Territory, we still have interests in 12 
States of the southeastern part of the United States. At this 
point, all we can do is kind talk to them and engage them in 
conversation.
    We do not have the resources to operate in a way to 
effectively protect and preserve cultural sites and historic 
sites in the southeast. Those are growing by the hundreds. We 
have well over 700 on our register right now from State parks 
to the national parks and lands.
    There is a bill we are supporting right now that is the 
expansion of the Okmulgee Mounds in the State of Georgia. We 
support them; however, we do not have the funds for that.
    I think one of the things they look forward to is digging 
deeper to see how we might be able to get those funds under 
self governance so we can work more in partnership instead of a 
consultative-type relationship.
    The Chairman. Governor Hisa and President Blazer, as well, 
I will ask the same question. What would you like to see as we 
work on the issue of self governance?
    Mr. Hisa. When it comes to self governance, I would like to 
see support and promotion of self governance at all levels of 
government. I would also like to recommend that it expands, as 
I said earlier, to all the agency funding sources out there, 
including HUD and USDA so that tribes can determine what their 
need is and use that money to address specific issues affecting 
them and those they identify as something they need to address. 
That would be my recommendation.
    The Chairman. President Blazer?
    Mr. Blazer. Thank you, Mr. Chairman.
    Having had the opportunity to work within the U.S. 
Department of Agriculture, I was able to truly gain an 
understanding of the tremendous capabilities that reside in all 
of the programs there.
    Just giving tribes the opportunity to partner with USDA and 
bring those resources onto the reservation to do the extremely 
important work we need to do, that reforestation work that 
needs to be done to not only protect our tribal lands but to 
protect the surrounding communities that lie outside of the 
reservation is very important.
    Moving towards continued self governance, strengthening the 
ability to enter into self determination contracts, and 
allowing the tribe to partner with those Federal agencies is 
going to lend itself to natural resource benefits for all of 
us. I am truly hopeful that can happen.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Chairman Hoeven.
    President Blazer, your testimony details how Mescalero 
Apache has successfully managed its forests through a 
combination of the tribe's Division of Resource Management and 
Protection and 638 contracts with BIA. It seems that the ISDEAA 
model is a real success story for your tribe.
    However, you also testified that it could be even more 
successful if the tribe took on a greater management role 
through self governance compacting. If self governance were to 
be expanded beyond BIA and the USDA Forest Service-managed 
lands, how would that improve your current management ability, 
particularly of the Lincoln National Forest?
    Mr. Blazer. Again, Senator Udall, look at the resources 
that lie within USDA, looking at the potential resources that 
lie within the upcoming Farm Bill, these are the types of 
funding we need in order to create effective partnerships, not 
only with our Federal agencies, but with our State agencies and 
local counties.
    Together, through these partnerships, we can move 
mountains, literally. The attitude is we are all on the same 
page regarding the need to work together to improve the health 
of our forests. Mescalero demonstrated we are able to do that. 
Our limiting factor has always been limited resources.
    If legislation could be achieved that would allow us more 
resources to work with, we can definitely play our role and 
strengthen those partnerships.
    Senator Udall. Thank you for that answer.
    Governor Hisa, your testimony details how Ysleta del Sur 
conducts and publishes a socioeconomic profile in order to make 
data-driven decisions. That seems to be the crux of what you 
are doing, data-drive decisions. Do you pay for these studies 
out-of-pocket?
    Mr. Hisa. Correct.
    Senator Udall. How does that work?
    Mr. Hisa. How does that work? Revenue is coming in from our 
operations, other businesses such as TY Inc. and Speaking Rock 
Entertainment Center. When we identified the need to gather 
information, we also identified the need to have a system in 
place where it is electronic, first of all; easy to put 
together and make sense of it; and bring in an expert to get 
all the information translated into something a tribal council 
and the community can understand. All that does cost money and 
that is something the tribe pays for every year.
    Senator Udall. Do you believe the Federal Government could 
serve tribes better through self governance by improving its 
own data collection through the U.S. Census Bureau perhaps to 
capture those unique nuances you described in your testimony?
    Mr. Hisa. I think the Census survey is not the answer. I 
think each tribe needs to be responsible for gathering their 
information, analyzing it and making sense of it, but, again, 
it all costs money.
    What would the Federal responsibility be? Maybe it would be 
funding for such projects to start, get them off the ground and 
then turn them over to each individual tribe to make it a norm.
    That is what has happened in my pueblo. It is a norm. Every 
decision being made, whether at the director or tribal council 
level, is always driven by the provided data.
    Instead of having each department get their own data, we 
have made it a tribal council responsibility to get all the 
data and sharing it with the departments to identify what we 
need to work on.
    This forces our departments to identify needs where they 
can work together in unity instead of each one doing their own 
thing, identify the available resources and not duplicate 
services. It has really, really worked for us.
    Senator Udall. Thank you, Mr. Chairman.
    The Chairman. Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    I want to thank you and Ranking Member Udall for having 
this hearing on tribal self governance. I think it is fair to 
say that self governance has literally reshaped the way in 
which health care and other social services are delivered to 
the Native people in Alaska. Whenever we have a hearing on this 
topic, I take great interest in it.
    We have clearly seen the success through the remarkable 
growth of the programs over the decades. I think we heard some 
of that today but recognizing that about 40 percent of all the 
federally-recognized tribes are self governance tribes under 
the DOI program just is testimony to the success of this.
    However, again, whether it is delivery of health care, the 
quality of health care, resource management, or road systems, 
we have seen, in Alaska, really a strong success story in these 
areas.
    I would note that you have indicated that you would like to 
see tribal self governance expanded to other areas. Right now, 
in Sitka, Alaska, the Sitka Tribe is compacting with the 
National Park Service.
    It is my understanding that this is the first time we have 
had this relationship. I would like to tell you it has been 
easy and perfect, but it has been exploring new territory. I 
think we are all looking to make sure this is something that 
works for the tribe, the agency, and the community, but they 
are really a forerunner right now in how that is coming 
together.
    I was very interested in your testimony, President Blazer, 
on the approach you have taken with the co-management with USDA 
and the Forest Service. There is some discussion relating to 
USDA and the Federal Nutrition Assistance Programs and the USDA 
Food Assistance Programs.
    The question I have for you is, we recognize there is 
strength in these self governance programs and we want to see 
expansion of them to other agencies. We recognize there are 
bumps in the road.
    Are there some agencies that are more receptive to the idea 
because I think some of the problems we are dealing with are it 
is not just a matter of resourcing. I know how important 
resourcing is because you have to have the dollars to help 
facilitate it.
    However, we also know we have some pretty entrenched 
bureaucracies around here. It is what it is, bureaucracy. Some 
agencies are more willing, I think, to work with us on co-
management and the compacts that are out there.
    Can you speak to that and perhaps share some of the better 
practices where we say, this is where it is working well, this 
is an area where we are not working so well, and we need to 
address it?
    Can you shine some light on this in terms of best practices 
we can look to and perhaps where we can make some improvements?
    Mr. Blazer. Thank you, Senator Murkowski. That is great 
insight and a great question.
    In regards to agencies being willing to take on this added 
opportunity and working with tribes, I think a lot of that goes 
back to our tribal ability to help make that connection.
    Senator Murkowski. You have to have the capacity.
    Mr. Blazer. Yes, exactly. We are very fortunate to have 
organizations that have been around for quite some time like 
the Intertribal Ag Council that works with tribes and helps to 
have agencies understand the potential and need for these 
services in order that we can truly demonstrate effective and 
sustainable self determination. I applaud the efforts of the 
Intertribal Ag Council.
    With regard to nutrition, I know the Mescalero were very 
interested in establishing a sustainable food program. This is 
something we are excited about and want to enter. We 
immediately turned to a program at the University of Arkansas 
at the School of Law that Janie Hipp, who is heading up that 
program, has established.
    She is working with tribes around the country in developing 
the food policy that we are going to need to properly utilize 
in self determination through the self governance and Indian 
self determination authorities.
    I guess what I am speaking toward is we have some very 
talented tribal support programs out there working with us and 
directly with tribes, which are going to help enable us to 
utilize these authorities.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    Thank you to the witnesses for being here.
    I wanted to ask a broad question about health care. 
Fourteen of our 29 tribes in the Pacific Northwest use self 
governance. I am sure Ron Allen would have liked to be here to 
testify today since he is such a great advocate for self 
governance.
    I have a really basic question. Do you think we deliver 
better and more efficient care through self governance than 
through the rest of Indian Health Services? Can you give me a 
yes or no, or can you please elaborate?
    Ms. Benjamin. Melanie Benjamin, Mille Lacs Band of Ojibwe, 
yes. At the grassroots level, at the tribal level, we know our 
people. We know what their issues are and how to communicate 
and deal with them on all aspects from the cultural sense to 
what their day-to-day needs are, in a sense, and we can provide 
better care for them at that level.
    Mr. Floyd. Yes, Senator Cantwell. I am James Floyd from 
Muscogee Creek Nation. I agree. I think tribes can do a better 
job. I believe we have demonstrated that. Presently with our 
tribe, we are a contractor with the Department of Veterans 
Affairs under the CHOICE Act. We are a CHOICE provider. We are 
certified with Medicare and Medicaid. We meet those hurdles.
    It also boils down to the fact when it is at the ground 
level with tribal citizens providing care to tribal citizens, 
it really is more meaningful. I think the relationships are 
stronger. I think the expectations are higher as well. We have 
to have that commitment. I believe we have that. All of our 
facilities are accredited.
    I know there are parts of the Indian Health Service that 
are struggling. I recognize that. I was also the Area Director 
of the Portland Area. I negotiated with Ron Allen and we did 
his self governance compact.
    I know ownership brings responsibilities that I think 
drives a higher standard. I think that is what tribes bring to 
the table.
    Mr. Hisa. Good afternoon.
    Our Pueblo has not transitioned into self governance when 
it comes to IHS. Although we have a wonderful working 
relationship with IHS, we have identified certain needs that we 
need to address. We are doing that on our own. We are, 
hopefully, going to go into self governance pretty soon in that 
area.
    I am going to use an example of diabetes. Diabetes 
something we have identified as a priority we need to look into 
in our community. I think IHS has identified through Indian 
Country.
    They have some best practices that they are asking us, I do 
not want to say forcing us to follow, but when we look at the 
program, some of the best practices in there are not fitting 
into our community. We have modified the program to fit within 
our scope and our need.
    Going into self governance and being able to determine what 
those best practices are, not only with diabetes but health 
care overall, I know will be beneficial if the tribe can make 
that decision.
    Mr. Blazer. Thank you for your question, Senator.
    At Mescalero, we work quite well with the Indian Health 
Service. Over the years, we have contracted various programs to 
the tribe like our diabetes programs and others. It is working 
well because as we build our capacity to operate these 
programs, we are doing so in a very holistic manner.
    We look at the total needs of our people, whether it is an 
addiction treatment program, a diabetes program, or child care 
program, we are developing our tribal capacity in a way where 
there are synergies being developed in the utilization of these 
resources.
    As we continue to develop that capacity, we will be able to 
take more and more of that responsibility and resources from 
the Indian Health Service to develop strong, viable, 
sustainable tribal programs that we are all striving for.
    Senator Cantwell. I thank all of you for the input you gave 
because you each added a little bit of the equation of what 
regional health care delivered through tribal organizations is 
doing.
    I can see it in my State and I guarantee you they are 
delivering better care at lower cost. Not only that, they are 
providing a resource for the larger community and for non-
Indian individuals to also access that health care 
infrastructure. That is efficiency.
    I just hope we continue to look at how much we save, that 
it is better quality care, and that we start thinking about how 
we can expand this to other tribes that are not doing self 
governance contracts on health care.
    Thank you very much, Mr. Chairman.
    The Chairman. I would like to thank all of our witnesses 
for being here today, for what you are doing in the area of 
self determination to benefit your tribes, the lead role all of 
you have played in this important initiative and continue to 
play, and for the ideas you have put forward that we will try 
to act on.
    If there are no more questions today, members may also 
submit written follow-up questions. The hearing record will be 
open for two weeks for that purpose.
    Again, to all of you, thanks so much for being here.
    With that, we are adjourned.
    [Whereupon, at 3:41 p.m., the Committee was adjourned.]

                            A P P E N D I X

         Prepared Statement of the Port Gamble S'Klallam Tribe
    Thank you, members of the Committee, on behalf of the Port Gamble 
S'Klallam Tribe, for the opportunity to present this written statement 
for the record of the April 18, 2018 oversight hearing entitled ``The 
30th Anniversary of Tribal Self-Governance: Successes in Tribal Self-
Governance and an Outlook for Next 30 Years.'' We appreciate the 
Committee Members' recognition of such an important matter and look 
forward to further expansion of federal tribal self-determination and 
self-governance policies.
I. The Importance of Self-Governance
    Over 40 years have passed since Congress enacted the Indian Self-
Determination and Education Assistance Act of 1975 (ISDEAA), \1\ and 
this year we have reached the 30th anniversary of the 1988 amendments 
\2\ to the ISDEAA that created the Tribal Self-Governance Demonstration 
Project. Through this legislation, and several later amendments, 
Congress initiated a federal policy of allowing tribal governments 
greater authority and control over the federal programs and services 
intended to fulfill the United States treaty obligations and trust 
responsibility. Tribal self-determination and self-governance has now 
become the hallmark of federal Indian policy after centuries of the 
devastating extermination, removal, and assimilation federal policies.
---------------------------------------------------------------------------
    \1\  Indian Self-Determination and Education Assistance Act of 
1975, Pub. L. No. 93- 638, 88 Stat. 2203 (codified as amended at 25 
U.S.C.   450-450n, 455-458e, 458aa-458hh, 458aaa-458aaa-18 (2006)).
    \2\ Indian Self-Determination and Education Assistance Act 
Amendments of 1988, Pub. L. No. 100-472, 102 Stat. 2285, repealed by 
Tribal Self-Governance Amendments of 2000, Pub. L. No. 106-260, 114 
Stat. 711 (codified at 25 U.S.C.   458aaa-458aaa-18).
---------------------------------------------------------------------------
    The Self-Governance Policy has proven so successful that today over 
50 percent of all federal Indian programs are carried out by tribes 
rather than federal agencies. \3\
---------------------------------------------------------------------------
    \3\ Geoffrey D. Strommer & Stephen D. Osborne, The History, Status, 
and Future of Tribal Self-Governance Under the Indian Self-
Determination and Education Assistance Act, 39 AM. INDIAN L. REV. 1, 1 
(2014-5).
---------------------------------------------------------------------------
    ISDEAA and the Self-Governance Policy are based on the proposition 
that tribes can provide better governmental services to their own 
members than can distant federal bureaucracies. \4\ Indeed, Self-
Governance is successful, in part, because Tribal Leaders have a better 
understanding of their members' needs than a distant federal official. 
By taking a localized community approach, instead of a uniform national 
one, Self-Governance allows Tribal Leaders the flexibility to tailor 
programs and services to the unique cultural traditions and specific 
needs of their tribal members and communities.
---------------------------------------------------------------------------
    \4\ Id.
---------------------------------------------------------------------------
II. History of Port Gamble S'Klallam Tribe
    The Port Gamble S'Klallam Tribe is a federally-recognized, self-
governing tribe with 100 percent of its reservation lands in trust. We 
are located on the northern tip of the Kitsap Peninsula in Kitsap 
County Washington. The Tribe's Reservation is home to about two-thirds 
of the Tribe's 1,200 enrolled members. We provide services to our 
members and approximately 800 other American Indians, Alaska Natives 
and non-Indians living on our Reservation.
    The Tribe joined the Tribal Self-Governance Project, a consortium 
of self-governing Indian tribes, in 1990 with the Bureau of Indian 
Affairs (BIA) and in 1994 with the Indian Health Service (IHS). Through 
Self-Governance, the Tribe has seen continual expansion of services and 
many successes.
    Some brief facts about the Port Gamble S'Klallam Tribe:

  [bullet] Talbot, of Puget Mill Co., arrives on Port Gamble Bay in 
        1853 and starts building a mill (Coman). S'Klallam on west side 
        of the Bay are asked to move across the Bay.

  [bullet] The Tribe is a signatory to the Point No Point Treaty of 
        1855.

  [bullet] In 1860 houses are built on what is now known as Point Julia 
        by Puget Mill Co., for the S'Klallam who work at the mill.

  [bullet] We are 1 of 3 federally recognized Klallam Tribes, 
        historically all the Klallams were one people but today we have 
        separate federal recognition status.

  [bullet] We ceded over 400,000 acres of land to the federal 
        government in the Treaty, but reserved our rights to hunt, fish 
        and gather, as we always had, along with other promises from 
        the United States.

  [bullet] We were without a reservation as promised in the treaty for 
        over 88 years when the Tribe eventually purchased its own 
        reservation out of settlement monies it won from a claims 
        settlement against the federal government.

    In 1958, the Tribe officially reported a bank balance of $288.69. I 
share this information because it is an important piece of history to 
show the continual growth of Port Gamble S'Klallam since compacting 
services under Self-Governance. In 1991, the Tribe managed a budget of 
nearly $1 million and had 45 employees. Today, the Tribe manages more 
than $8 million in Self-Governance monies. The Tribe has approximately 
294 employees; Tribal members and other Natives make up 63 percent of 
total employees.
    The Tribe is governed by a six member Tribal Council who serve two 
year, staggered terms. The General Council delegated authority to the 
Tribal Council to conduct day-to-day operations in the Port Gamble 
S'Klallam Constitution. The Tribe has a federal Section 17 Charter, 
separating economic development from government. The Tribe has an 
Executive Team comprised of the Executive Director, legal counsel, 
human resources, internal auditors and CFO who meet monthly to review 
Council directives. The Tribe employees two Administrative Directors, 
assigned to oversee Tribal Services and Tribal Government and work 
directly with the executive team.
    The Administrative Director of Tribal Services is responsible for 
the majority of Tribal departments that receive Self-Governance 
funding:

  [bullet] Natural Resources
  [bullet] Culture
  [bullet] Career and Education
  [bullet] Health
  [bullet] Behavioral Health
  [bullet] Children and Families Services
  [bullet] Special Projects/Self-Governance
  [bullet] Early Head Start

    The Administrative Director of Tribal Government has departments 
that are compacted under Self-Governance as well and is responsible 
for:

  [bullet] Court Services
  [bullet] Finance
  [bullet] Planning and Land Acquisition
  [bullet] Utilities
  [bullet] Facilities
  [bullet] Grant Coordinator
  [bullet] Information Technology
  [bullet] Public Safety

III. Department Overview of Self-Governance
Health
    Our Self-Governance funding covers the administrative functions of 
Health and Behavioral Health, along with providing such things as swim 
passes, gas cards for specialty medical services, lab tests, ambulance 
contracting, insurance premiums and other services. We have reduced the 
number of write-offs by insuring Tribal members and increased the 
number of insured Tribal members, saving Purchased Referred Care funds 
and increasing services to youth by purchasing eyeglasses and providing 
orthodontics care.
Natural Resources
    Natural Resources works diligently to protect Treaty Rights of 
Tribal members and oversees a variety of programs such as climate 
change impacts, water quality monitoring, a fish hatchery and reseeding 
beaches with oysters and clams, and ensuring future generations have 
the opportunity to practice subsistence harvesting.
Children and Families Services
    The Tribe's Children and Family Services (CFS) continues to be on 
the forefront and is proactive in obtaining funding to continue 
services for all Tribal members. CFS oversees our Foster Care program, 
Indian Child Welfare, youth program, Behavioral Health (to assist those 
with chemical dependency and mental health problems), Child Support 
Enforcement, TANF, Medicaid and Food Stamp services, and a food and 
clothing bank. The CFS also hosts a variety of events for Tribal 
members, such as the annual Health Fair and Bite of Boston to raise 
funds for our elders program and a summer food program for youth. CFS 
also coordinates services with the Tribal court and health programs.
Education
    The Education Department assists Tribal and community members with 
a back-to-school back-pack distribution, college enrollment, GED 
services, family reading nights held in conjunction with the local 
district, and employment services such as resume writing, job search, 
and career mapping. It also employs four academic coaches who work with 
students in K-12 directly in the school setting to provide intervention 
services.
Early Head Start
    The Early Head Start Program is funded with federal dollars and 
serves approximately 60 children from birth to 5 years. The Program 
provides school readiness with an emphasis on Tribal Culture into their 
programs from language, song and dance, and art. A cultural specialist 
works with teachers and children. The Tribal Council approved expanding 
the program in 2016 to serve an additional 8 children and fully funded 
the expansion with the Tribes revenues.
Culture
    Our Culture Department provides S'Klallam language classes and is 
active in teaching different art forms, such as weaving and beading to 
Tribal members. The Culture Department hosts Family Cultural Events 
throughout the year that offer traditional cooking, weaving, drum 
making, beading and language. The S'Klallam Tribe has 4 certified 
language teachers who work with other departments as well to 
incorporate language and culture into the services provided.
Court
    The Tribe operates our own court system. The Tribe has a 
prosecutor, public defender and probation officers. Court services 
received funding to operate a Re-entry program to help those with 
criminal backgrounds remove barriers to employment. The court has a 
domestic violence and sexual assault advocate, is planning a Healing-
to-Wellness model and has a Court Appointed Special Advocate.
Public Safety (Police)
    Public Safety provides 24-hour coverage to the Tribe. One officer 
is trained as an investigator to work with CFS to provide specialized 
investigation into minors who experience sexual assault and domestic 
violence. Officers participate in the Tribe's Tribal Healing Opioid 
Response (THOR) team and have undergone training in drug recognition. 
Public Safety also provides support in traffic collisions to the County 
Sheriff in the North end of Kitsap County.
Other Programs
    The Tribe also operates its own Housing program, facilities 
maintenance, sewer system, utilities, planning, police and information 
technologies departments. The Tribe owns and operates Hersonswood 
Botanical Gardens, The Point Casino, and a 97-room hotel adjacent to 
the casino.
IV. Future Opportunities
    Further expansion of the Self-Governance model is essential, but 
fully funding contract support costs and providing adequate direct 
funding to administer the programs are key elements for continued 
success of Self-Governance. Contract support costs are an important 
funding mechanism for Self-Governing Tribes like ours to administer our 
programs and provide services. Adequate direct funding means reliable 
resources and flexibility for the Tribe to continue implementing our 
Self-Governance compacted programs. Additionally, adequate direct 
funding allows us to plan long-term for infrastructure development, 
program enrichment, and service enhancements necessary for the well-
being of our members and local community. Direct funding through the 
self-governance model is a preferable alternative to funding in the 
form of grants, which is challenging. Based on our experience, we 
caution against funding in the form of grants because competitive 
funding pits tribes against each other, and against local governments, 
all of which are struggling for access to limited resources when we 
should be working together.
    Expanding Self-Governance will allow Tribes-such as ours-to 
continue to thrive and grow through our administration of more federal 
programs tailored to fit the needs of our people. We support expansion 
of tribal self-governance authority to all federal programs benefiting 
Tribes, tribal members and tribal communities. The following are just 
some examples of how expanding Self-Governance authority would help the 
Tribe.
    Early Head Start (ECE) is one program where compacting to Self-
Govern would benefit the Tribe. The program is heavily subsidized and, 
understandably heavily regulated. In the history of the ECE program, 
the Tribe has had 100 percent scoring of federal reviews to ensure 
compliance with regulations. The focus should be on the care and 
teaching of children. The Tribe cares for its future, its children, and 
has increased Tribal funds to ensure more children are being served and 
not excluded from these essential pre-K services.
    The Tribe also receives multiple grants from the Environmental 
Protection Agency (EPA) each year. Instead of Individual Cooperative 
Agreements, we propose the EPA cooperate with the BIA to distribute the 
EPA funding through the Tribe's existing Self-Governance Compact.
    As negotiations for reauthorizing the Farm Bill are underway, we 
also advocate for expanding Self-Governance to include all United 
States Department of Agriculture (USDA) programs. One of the most 
essential roles of a government is ensuring the well-being of its 
citizens, including access to quality and nutritious food, such as 
Supplemental Nutrition Assistance Program (SNAP) and Food Distribution 
Program on Indian Reservations (FDIPR). Our Tribe is the only tribe 
with a government-to-government waiver and contract with the USDA to 
operate a tribal SNAP. Our program provides services to both tribal and 
non-tribal members in our service area. Reports have indicated that 
participation of Native Americans in SNAP increased by 35 percent in 
the zip codes served by the Tribe. As our experience shows, tribal 
management of SNAP is a more effective use of federal dollars and has 
strengthened service delivery. SNAP, FDPIR and other USDA programs, so 
many of which are essential to tribes, should be subject to Self-
Governance.
V. Conclusion
    In the 30 years of Self-Governance, the Tribe has grown 
significantly and services for Tribal members has increased. The Port 
Gamble S'Klallam Tribe has a proven track record of providing essential 
services to Tribal members and finding creative solutions to provide 
other services, such as clothing vouchers and food vouchers. We are a 
proud, self-governing Tribe that will continue to work hard to provide 
for our people. We ask this Committee to strongly support Self-
Governance and to work to expand this successful policy.
    The Port Gamble S'Klallam Tribe would like to once again thank you 
for this opportunity to showcase Self-Governance success. We invite you 
to visit us on our Reservation to witness our programs and services 
first-hand and see for yourself the importance of self-governing.
                                 ______
                                 
 Prepared Statement of the Self-Governance Communication and Education 
                       Tribal Consortium (SGCETC)
Why Self-Governance--Why Now?
    It is hard to imagine today, that prior to 1975, the Federal 
government administered and operated almost all programs serving 
American Indians and Alaska Natives (AI/AN). In 1975, Public Law 93-
638, the Indian Self-Determination and Education Assistance Act 
(ISDEAA) was enacted with three primary goals: (1) to place the Federal 
government's Indian programs firmly in the hands of the local Indian 
people being served; (2) to enhance and empower local Tribal 
governments and their governmental institutions; and, (3) to 
correspondingly reduce the Federal bureaucracy.
    The original Title I of the ISDEAA, still in operation today, 
allows Tribes to enter into contracts with the Department of Health and 
Human Services (DHHS) and the Department of the Interior (DOI) to 
assume the management of programs serving Indian Tribes within these 
two agencies. Frustrated by the stifling bureaucratic oversight imposed 
by the Bureau of Indian Affairs (BIA) and the Indian Health Service 
(IHS), in 1986, the Alliance of American Indian Leaders (AAIL) 
developed recommendations to secure the right of Indian Tribes to exist 
as Tribes in perpetuity. These recommendations included Tribal 
governmental rights to exercise Tribal sovereignty, to seek elimination 
of arbitrary unilateral decisionmaking of the Federal government and to 
reaffirm that Tribes should have an effective voice, as governments, in 
all matters affecting their affairs.
    On October 5, 1988, Congress passed the Tribal Self-Governance 
Demonstration Project (P.L. 100-472). Unlike Title I contracts--which 
subjected Tribes to Federal micromanagement of assumed programs and 
forced Tribes to expend funds as prioritized by BIA and IHS officials--
DOI was authorized to negotiate Compacts with Tribes that would give 
Tribes more flexibility in the operation of Indian programs. Self-
Governance Compacts and Funding Agreements allowed Tribes to set their 
own priorities, redesign programs and determine how program funds 
should be allocated. In 1992, the demonstration authority was expanded 
to the DHHS IHS under P.L. 102-573. Today, 26 years later, more than 
365, or 64 percent, of the 573 Federally-recognized Tribes in the 
United States operate under a Compact of Self-Governance in the IHS.
    The original Title III Demonstration Project proved to be a 
tremendous success, and in 1994, Congress enacted Title IV of the 
ISDEAA, thereby implementing permanent Tribal Self-Governance within 
DOI. In 2000, Congress once again determined that Self-Governance 
Tribes had demonstrated that they were better stewards of the funding 
and permanently authorized Self-Governance in the IHS.
    On this, the 30th Anniversary of Tribal Self-Governance in DOI, we 
applaud the courageous Tribal Leadership, the support of dynamic 
intuitive legislators who took a leap of faith and the many inspiring 
and persistent individuals who were at the forefront of this remarkable 
historical Tribally-driven movement. Self-Governance works because it 
places management responsibility in the hands of those who care most 
about seeing Indian programs succeed: Indian Tribes themselves.
The Success of Self-Governance
    Under Self-Governance, Tribes have assumed the management of a 
large number of programs, services, functions and activities (and 
portions thereof) in DOI such as roads, housing, education, law 
enforcement, court systems, and natural resources management. In the 
IHS, Tribes have immersed themselves in the business of health and 
operate and manage Tribal hospitals and clinics, provide services to 
their Tribal citizens and are receiving recognition for their health 
operations. The increasing number of Tribes that have opted to 
participate in Self-Governance on an annual basis reflects the success 
of the program.
    In Fiscal Year 1991, the first year Self-Governance agreements were 
negotiated between the BIA and seven (7) Tribes including; Quinault 
Indian Nation, Lummi Indian Nation, Jamestown S'Klallam Tribe, Hoopa 
Valley Tribe, Cherokee Nation, Absentee Shawnee Tribe and the Mille 
Lacs Band of Ojibwe Indians. Today, in FY 2018, there are 275 Tribes 
and Tribal Consortia participating in Self-Governance representing all 
of the BIA regions with the exception of the Great Plains and Navajo 
for a total dollar amount of $475 million.
    In the IHS, originally there were fourteen (14) Tribes who 
negotiated and entered into Self-Governance Compacts in 1993-1994 
representing six (6) of the IHS areas. These Tribes included Grand 
Traverse Band of Ottawa and Chippewa Indians of Michigan, Confederated 
Salish and Kootenai Tribes of the Flathead Nation, Mille Lacs Band of 
Ojibwe Indians, Hoopa Valley Tribe, Absentee Shawnee Tribe, Cherokee 
Nation, Sac and Fox Nation, Duckwater Shoshone Tribe, Ely Shoshone 
Tribe, Confederated Tribe of Siletz Indians of Oregon, Jamestown 
S'Klallam Tribe, Lummi Indian Nation, Makah Indian Tribe and the Port 
Gamble S'Klallam Tribe. Currently in FY 2018, the IHS Tribal Self-
Governance Program represents 98 Compacts, 124 Funding Agreements, 
representing 365 Tribes and Tribal Consortia located in all 12 IHS 
areas and transfers over $2.0 billion annually. Many Tribes and Tribal 
Consortia also participate in both DOI and IHS which validates that the 
local needs of Tribal citizens are best provided by the local Tribal 
governments.
    One of the most successful efforts by Self-Governance Tribes has 
been to work in partnership with Congress, DOI and IHS to secure full 
contract support costs (CSC) funding. In addition, the continuance of 
an indefinite appropriation, allows both DOI and IHS to guarantee full 
CSC funding while protecting funding for non-Self-Governance Tribes.
Simply put, Self-Governance:
    Promotes Efficiency. Devolving Federal administration from 
Washington, D.C. to Indian Tribes across the United States has 
strengthened the efficient management and delivery of Federal programs 
impacting Indian Tribes. As this Committee well knows, prior to Self-
Governance, up to 90 percent of Federal funds earmarked for Indian 
Tribes were used by Federal agencies for administrative purposes. Under 
Self-Governance, program responsibility and accountability has shifted 
from distant Federal personnel to elected Tribal leaders. In turn, 
program efficiency has increased as politically accountable Tribal 
leaders leverage their knowledge of local resources, conditions and 
trends to make costsaving management decisions.
    Strengthens Tribal Planning and Management Capacities. By placing 
Tribes in decision-making positions, Self-Governance vests Tribes with 
ownership of the critical ingredient necessary to plan our own futures- 
information. At the same time, Self-Governance has provided a 
generation of Tribal members with management experience beneficial for 
the continued effective stewardship of our resources.
    Allows for Flexibility. Self-Governance allows Tribes great 
flexibility when making decisions concerning allocation of funds. 
Whether managing programs in a manner consistent with traditional 
values or allocating funds to meet changing priorities, Self-Governance 
Tribes are developing in ways consistent with their own needs and 
priorities.
    Affirms Sovereignty. By utilizing signed compacts, Self-Governance 
affirms the fundamental government-to-government relationship between 
Indian Tribes and the U.S. Government. It also advances a political 
agenda of both the Congress and the Administration, i.e. shift Federal 
functions to local governmental control.
Challenges--Past, Present and Future
    Throughout the 30 year history, Tribes have benefitted from the 
support of countless advocates and they continue to forge the legacies 
of many. As with any new adventure, there were hurdles, compromises, 
mistakes and challenges. Despite that, Tribes have benefitted from them 
all since there was not a ``blue print'' to guide the journey. Because 
of great Tribal leadership and educated, experienced technicians 
helping to chart and document our movement, these challenges became 
accomplishments--the successes that Self-Governance Tribes enjoy today.
    One challenge that Self-Governance Tribes continue to grapple with 
today is the hesitancy of non-BIA agencies within DOI to fully embrace 
the ISDEAA as intended and allow Tribes to take over management of 
programs and services outside of the BIA. Since the origin of the Self-
Governance movement, the Non-BIA agencies were not happy with the 
expansion of Self-Governance and seized upon every opportunity to slow 
the Title IV negotiated rulemaking process down including coming up 
with onerous versions of the regulations. The stronghold that these 
agencies had on how the regulations were drafted led to a tedious drawn 
out regulatory process that lasted a number of years and which frankly 
contributed to the position Tribes are in today of having to advocate 
for a legislative fix. After over ten years of trying to attain small 
technical amendments to Title IV, Tribes were forced to bi-furcate the 
legislative effort in order to keep the non-BIA agencies at bay. 
Despite this Administrative pushback, Self-Governance Tribes have not 
given up on pursuing the authority to contract for programs and 
services within these non-BIA agencies. Currently there are a handful 
of successes with approximately 11 Agreements between Tribes and non-
BIA agencies that were successfully negotiated. All of these efforts 
are reflective of how Tribes have proven time and again that they can 
do a better job and that it can be done more effectively and 
efficiently at the local level.

  2018 funding agreements between self-governance tribes and non-bia 
               bureaus in the department of the interior

    National Park Service
        --Sitka Tribe
        --Yurok Tribe
        --Great Lakes Restoration Project, Grand Portage Band of Lake 
        Superior Chippewa Indians
    Bureau of Land Management
        --Council of Athabascan Tribal Governments
        --Duckwater Shoshone Tribe of the Duckwater Reservation
    Bureau of Reclamation
        --Karuk Tribe
        --Yurok Tribe
        --Hoopa Valley Tribe
        --Chippewa Cree Tribe of the Rocky Boy's Reservation
        --Gila River Indian Community
    Office of the Special Trustee for American Indians
        --Confederated Salish & Kootenai Tribes of the Flathead 
        Reservation
    Fish & Wildlife Service
        --Council of Athabascan Tribal Governments

    Within the Department of Health and Human Services (HHS), Tribes 
have faced similar resistance to expansion and implementation of Self-
Governance. For nearly two decades, Tribal leadership has prioritized 
expanding Self-Governance to other programs within HHS. Sadly, 
bureaucrats within HHS have staunchly refused to entertain the idea of 
creating a pilot or demonstration project that would allow Self-
Governance to be conducted on a trial basis outside of the IHS. 
Further, this resistance is despite a Congressional directive that 
required the HHS to conduct a study to determine the feasibility of 
extending Self-Governance into other HHS agencies, as authorized in 
P.L. 106-260, and the Department's subsequent publication of a 2003 
Report signed by the HHS Secretary in which eleven (11) programs were 
found suitable for a Self-Governance Demonstration Project.
    In 2011, Secretary Sebelius revived HHS's efforts to implement 
Title VI by convening the Self-Governance Tribal Federal Workgroup 
(SGTFW). The SGTFW process was productive and useful in identifying the 
obstacles that must be overcome, but progress toward solutions was 
frustrated by HHS representatives' professed inability to consider 
legislative measures. During the SGTFW process, Tribal representatives 
tried to confront this fundamental barrier by presenting a concrete 
legislative proposal as well as a Concept Paper describing its major 
design elements. But Federal members and staff did not respond to the 
proposal or even the Concept Paper, stating that they were not 
authorized to discuss any proposed legislation. Thus the dialogue was 
doomed to focus exclusively on barriers rather than how to overcome 
them through the vehicle all agreed was necessary: legislation to 
authorize a demonstration project.
    Today, Tribes now celebrate Self-Governance in the Department of 
Transportation--pending the development of draft regulations. It is 
unfortunate that Tribes are often negatively impacted far more than any 
other population in this Country when there is a change in the 
Administration and Congress. Tribal protections, treaty rights and 
trust obligations by the United States are chiseled into the historical 
annals of the United States. Unfortunately, Tribes must always be 
required to ``restart the clock, relive the broken promises and educate 
newcomers about the unfulfilled treaties and promises''.
    As we look ahead. It is unfortunate that the intent of Congress may 
not be honored because the statutory authority for a Tribal 
Transportation Self-Governance Program (TTSGP) in DOT is in jeopardy of 
expiring in December 1, 2018 unless Congress intervenes and extends the 
time for the Negotiated Rulemaking Committee to complete its work. In 
Section 1121 of the FAST Act, Congress directed the Department to 
``adapt the negotiated rulemaking procedures to the unique context of 
self-governance and the government-to-government relationship between 
the United States and Indian tribes.'' 23 U.S.C. 207(n)(2)(C). The 
process has come to a halt, although DOT continues to say they will 
resume the Committee. The Committee Tribal representatives wish to be 
clear; a condensed Notice of Proposed Rulemaking, a program handbook, 
or departmental guidance are all unacceptable alternatives to 
comprehensive regulatory language implementing legislation enacted for 
the benefit of Tribes.
    Recalcitrance continues to be a hurdle that Tribes have not 
mastered because of the institutional ignorance that remains in both 
the Federal government and Congress. Without the continued support of 
our friends and allies--which we are fortunate to have many on the 
Senate Committee on Indian Affairs, Tribes must continue to forge ahead 
and take it one challenge, one hurdle and one day at a time. We are 
excited about the possibilities of S. 2409, Tribal Nutrition 
Improvement Act of 2018--legislation that will enable Tribes to provide 
services, child nutrition programs, directly without going through the 
states--a Self-Governance like concept.
    On behalf of the Self-Governance Tribes, SGCETC is proud of the 
many is proud of Tribal accomplishments under Self-Governance due to 
the control and ability of Tribal governments to redesign services and 
programs that fulfill the needs of our Tribal citizens. Tribes are 
destined to succeed because of the knowledge and determination 
inherited from our ancestors. They continue to guide us through the 
turbulent times, shield us from the wrath of political and career 
bureaucrats who did not want to endure the imminent change driven by 
Self-Governance and pave the way for the next seven generations. We are 
living in a great time in this Country, but we are not done. This is 
not a 30 year effort that needs to be heralded every anniversary date. 
It is an eternal way of life for AI/AN people. We were just fortunate 
that it happened on our watch--in our lifetime!
    Finally, we raise our hands to ``Self-Governance Pioneers and 
Warriors'' committed to the journey and who have paved the way to this 
new Tribal-Federal relationship we enjoy today. While we may not have 
identified them all in the attached anthology, SGCETC acknowledges and 
appreciates their contributions that made this journey possible. It is 
befitting that they receive praise for believing that the principles of 
Self-Governance, would in many ways, provide a roadmap to remedy some 
of the major fiscal impediments that have plagued not only American 
Indian and Alaska Native communities, but throughout the United States 
as well.
    Thank you.

    Attachment
          RECOGNITION OF SELF-GOVERNANCE PIONEERS AND WARRIORS
    In 1986, the Alliance of American Indian Leaders (AAIL) developed 
recommendations to secure the right of Indian Tribes to exist as Tribes 
in perpetuity, to exercise Tribal sovereignty, to seek elimination of 
arbitrary unilateral decisionmaking of the Federal government and to 
reaffirm that Tribes should have an effective voice, as governments, in 
all matters affecting their affairs. On October 5, 1988, Congress 
passed the Tribal Self-Governance Demonstration Project (P.L. 100-472) 
which authorized the Bureau of Indian Affairs to negotiate Compacts 
with Tribes that would give Tribes more flexibility in the operation of 
Indian programs. On this, the 30th Anniversary of Tribal Self-
Governance, we acknowledge the courageous Tribal Leadership, the 
support of dynamic intuitive legislators who took a leap of faith and 
the many inspiring and persistent individuals who were at the forefront 
of this remarkable historical Tribally-driven movement.
    Throughout the 30-year history, Self-Governance Tribes have 
benefitted from the advocacy of countless and we continue to forge 
their legacies. These ``Self-Governance Warriors'' committed to the 
journey and have paved the way to this new Tribal-Federal relationship 
we enjoy today. While we may not have identified them all in this 
anthology, we appreciate their contributions. On behalf of the more 
than 360 Federally-recognized Tribes participating in Self-Governance 
today, we applaud the ``Self-Governance Warriors'' who have made this 
journey possible. We are eternally grateful.
  self-governance within the u.s. department of the interior--indian 
                            affairs (doi-ia)

    THE ADMINISTRATION:
  [bullet] Emanuel ``Manny'' Lujan, U.S. Secretary of the Interior 
        (1989-1993)
  [bullet] William D. Bettenburg, Deputy Assistant Secretary--Indian 
        Affairs and Special Assistant to the
  [bullet] Secretary, DOI (1990 to 1993); (deceased)
  [bullet] Ross O. Swimmer, Assistant Secretary--Indian Affairs, DOI 
        (1985-1989)
  [bullet] Eddie F. Brown, Assistant Secretary--Indian Affairs, DOI 
        (1989-1993)
  [bullet] Ada E. Deer, Assistant Secretary -Indian Affairs (1993-1997)

    Department of the Interior--Office of Self-Governance (OSG):

  [bullet] William Lavell (deceased), Director, OSG (1990-1994)

  [bullet] Ron Brown (deceased), Acting Director, OSG (1994); OSG 
        Northwest Field Office (1992-1994)

  [bullet] Bill Sinclair, Compact Negotiations Manager, OSG (1991-
        1995); Director, OSG (1995-2005)

  [bullet] Ken Reinfeld, Senior Policy Analyst, OSG (1991-2018 
        current); Acting Director, OSG (2006)

  [bullet] Sharee Freeman, Assistant Solicitor--Indian Affairs (1988-
        1997); Director, OSG (2007-Current)

  [bullet] Karole Overberg, (deceased), Manager, OSG Northwest Field 
        Office (1995-1998)

  [bullet] Tom Shirilla (deceased), Quinault IPA (1993); Compact 
        Negotiator (1994-1998); Manager, OSG Northwest Field Office 
        (1998-2007)

  [bullet] Matt Kallappa, Makah Tribe, IPA (1995-1998; Compact 
        Negotiator (1998-2007); Manager OSG Northwest Field Office 
        (2007-2018 current)

  [bullet] Arlene Brown, Finance Manager, OSG (1990-2006)

  [bullet] Barry Roth, Assistant Solicitor--Parks and Wildlife (1988-
        2016)

    U.S. CONGRESS:

  [bullet] Congressman Sidney Yates (D-IL) (deceased)

  [bullet] Congressman Morris Udall (D-AZ) introduced HR 1223 in 1987 
        which became PL 100-472

  [bullet] Congressman George Miller (D-CA)

  [bullet] Congressman Bill Richardson (D-NM) Co-Sponsor HR 1223

  [bullet] Sen. Dan Inouye (D-HI) (deceased)

  [bullet] Sen. John McCain (R-AZ)

  [bullet] Senator Daniel J. Evans (R-WA) introduced S. 1703 (9/18/87), 
        ISDEAA Amendments of 1987

    Co-Sponsors: Dan Inouye (D-HI), John McCain (R-AZ) Quentin N. 
Burdick (D-ND), Dennis DeConcini (D-AZ), Frank H. Murkowski (R-
AK),Thomas A. Daschle (D-SD), Pete V. Domenici (R-NM), Mark O. Hatfield 
(R-OR), Bob Packwood (R-OR), Thad Cochran (R-MS), Chic Hecht (R-NV), 
Jeff Bingaman (D-NM), Brock Adams (D-WA), John Melcher (D-MT), Albert 
Gore, Jr. (D-TN), John H. Chafee (R-RI), Max Baucus (D-MT), Alan 
Cranston (D-CA), Howell Heflin (D-AL) and Ted Stevens (R-AK)

    TRIBAL LEADERS (ORIGINAL 7 SELF-GOVERNANCE COMPACTS NEGOTIATED WITH 
DOI):

  [bullet] Chairman W. Ron Allen, Jamestown S'Klallam Tribe

  [bullet] Chairman Larry Kinley, (deceased) Lummi Nation

  [bullet] Chairman Dale Risling, Hoopa Valley Tribe

  [bullet] President Joseph B. DeLaCruz (deceased), Quinault Indian 
        Nation

  [bullet] Chief Wilma Mankiller (deceased), Cherokee Nation

  [bullet] Governor Dr. John Edwards, Absentee--Shawnee Tribe

  [bullet] Chief Executive Marge Anderson (deceased), Mille Lacs Band 
        of Ojibwe Indians

    OTHER TRIBAL ADVOCATES AND PIONEERS:

  [bullet] Joe Tallakson, (deceased), SENSE Incorporated

  [bullet] C. Juliet Pittman, SENSE Incorporated

  [bullet] Rudy Ryser, Quinault Indian Nation

  [bullet] Paul Alexander, Attorney

  [bullet] Phil Baker-Shenk, Attorney

  [bullet] Fran Ayer (deceased), Attorney

  [bullet] Tadd Johnson, Attorney

  [bullet] Thomas P. Schlosser, Attorney

  [bullet] Lloyd B. Miller, Sonosky, Chambers, Sachse, Miller & 
        Monkman, LLP

  [bullet] Bill Parkhurst, (deceased) Quinault Indian Nation

  [bullet] Joe Melland, (deceased) Lummi Nation

  [bullet] Will Mayo, Alaska Federation of Natives

  [bullet] Vickie Hanvey, Cherokee Nation

    SELF-GOVERNANCE ADVISORY COMMITTEE (SGAC):

  [bullet] W. Ron Allen, Tribal Chairman/CEO, Jamestown S'Klallam 
        Tribe, SGAC Chairman (1998--Present)

  self-governance within the department of health and human services--
                         indian health service

    THE ADMINISTRATION:

  [bullet] Donna Shalala, HHS Secretary (1993-2001)

  [bullet] Dr. Michael Trujillo, IHS Director (1994--2002)

  [bullet] Michel Lincoln, Acting IHS Director (1993 -2000)

    INDIAN HEALTH SERVICE OFFICE--OFFICE OF TRIBAL SELF-GOVERNANCE 
(OTSG):

  [bullet] Ruben Howard, Acting Director, (1993--1996)

  [bullet] Paula Williams, First Permanent Director, OTSG (1996--2006)

  [bullet] Tena Larney, Acting Director, (2006)

  [bullet] Hankie Ortiz, Director, OTSG (2007-2012)

  [bullet] P. Benjamin Smith, Director, OTSG (2012-2016)

  [bullet] Jennifer Cooper, Acting Director, OTSG (2016-Current)

    INDIAN HEALTH SERVICE LEAD NEGOTIATORS

  [bullet] Eric B. Broderick, Agency Lead Negotiator

  [bullet] Mark Downing, Agency Lead Negotiator

  [bullet] Ron Ferguson, Agency Lead Negotiator

  [bullet] Gary Hartz, Agency Lead Negotiator

  [bullet] Steve Weaver, Agency Lead Negotiator

    U.S. CONGRESS:

  [bullet] Sen. Dan Inouye (deceased)

  [bullet] Sen. John McCain Sen. Ben Nighthorse Campbell, Senate 
        Committee on Indian Affairs

  [bullet] Congressman George Miller (D-CA) Sponsor (PL 102-184--IHS 
        Feasibility Study and P.L. 106-260 IHS Permanent Authority)

  [bullet] Congressman John J. Rhodes (R-AZ)

    Also on P.L. 102-573 extending SG to Indian Health Service: 
Senators Tom Daschle (D-SD), Pete Domenici (R-NM), Quentin Burdick (D-
ND), Frank Murkowski (R-AK), Paul Simon (D-IL), Thad Cochran R-MS), Ted 
Stevens (R_AK), Daniel Akaka (D-HI), Dennis DeConcini (R-AZ), Kent 
Conrad (D-ND), Nancy Landon Kassebaum (R-KS), Paul Wellstone (D-MN), 
Harry Reid (D-NV), Edward M. Kennedy (D-MA) and Don Nickles (R-OK)

    Permanent Self-Governance Authority in IHS: Congressman George 
Miller (D-CA) and 29 Co-Sponsors: Don Young (R-AK), Dale E. Kildee (D-
MI). Peter A DeFazio (D-OR), Eni F. H. Faleomavaega (D-AS), Neil 
Abercrombie (D-HI), Carlos A. Romero-Barcelo (D-PR), Robert A. 
Underwood (D-GU), Patrick J. Kennedy (D-RI), Jay Inslee (D-WA), J.D. 
Hayworth (R-AZ), Jim McDermott (D-WA), Nancy Pelosi (D-CA), George E. 
Brown, Jr. (D-CA), James L. Oberstar (D-MN), Bob Filner (D-CA), Ed 
Pastor (D-AZ, Barney Frank (D-MA), Matthew G. Martinez (D-CA), Debbie 
Stabenow (D-MI), Edolphus Towns (D-NY), Patsy T. Mink (D-HI), Charles 
W. ``Chip'' Pickering (R-MS), Thomas H. Allen (D-ME), Bart Stupak (D-
MI), Martin Frost (D-TX), Henry A. Waxman (D-CA), Lois Capps (D-CA), 
Donna MC Christensen (D-VI) and Earl Blumenauer (D-OR)

    Tribal Leaders (Original 14 Self-Governance Compacts Negotiated 
with IHS):

  [bullet] Chief Merle Boyd, (deceased), Sac and Fox Nation and Tribal 
        Self-Governance Advisory Committee (TSGAC) Chairman 1999--2003

  [bullet] Chairman Joseph C. Raphael, Grand Traverse Band of Ottawa 
        and Chippewa Indians of Michigan

  [bullet] Chief Wilma Mankiller, Cherokee Nation (deceased)

  [bullet] Chairman W. Ron Allen, Jamestown S'Klallam Tribe

  [bullet] Chairman Gerald ``Jake'' Jones, (deceased) Port Gamble 
        S'Klallam Tribe

  [bullet] Chief Executive Marge Anderson, (deceased)Mille Lacs Band of 
        Ojibwe Indians

  [bullet] Chairman Dale Risling, Hoopa Valley Tribe

  [bullet] Governor Larry Nichols, Absentee Shawnee Tribe

  [bullet] Chairman Lindsay Manning, Duckwater Shoshone Tribe

  [bullet] Chairman Jerry Charles, Ely Shoshone Tribe

  [bullet] Chairwoman Dee Pigsley, Confederated Tribe of Siletz Indians 
        of Oregon

  [bullet] Chairman Henry Cagey, Lummi Nation

  [bullet] Chairman Hubert Markishtum, (deceased) Makah Tribe

  [bullet] Chairman Mickey Pablo (deceased), Confederated Salish and 
        Kootenai Tribes of the Flathead Nation

    OTHER TRIBAL ADVOCATES AND PIONEERS:

  [bullet] Ed Thomas, Tlingit and Haida Indian Tribes of Alaska

  [bullet] Will Mayo, Tanana Chiefs Conference

  [bullet] Dwayne Hughes (deceased), Absentee-Shawnee Tribe

  [bullet] Mickey Peercy, Choctaw Nation of Oklahoma

  [bullet] Sybil Sangrey-Colliflower, (deceased), Chippewa Cree Tribe 
        of Rocky Boy Reservation

  [bullet] Anna Sorrel, Confederated Tribes of Salish-Kootenai

  [bullet] Cyndi Holmes Ferguson, Jamestown S'Klallam Tribe

  [bullet] Karen Meyers, Mille Lacs Band of Ojibwe Indians

  [bullet] Eugenia Tyner Dawson, Sac and Fox Nation

  [bullet] Julie Johnson, Makah Tribe

  [bullet] Melanie Fourkiller, Kaw Nation

  [bullet] S. Bobo Dean, Hobbs, Straus, Dean & Wilder (now Hobbs, 
        Straus, Dean & Walker, LLP)

  [bullet] Geoff Strommer, Hobbs, Straus, Dean & Walker, LLP

  [bullet] Myra M. Munson (retired), Sonosky, Chambers, Sachse, Miler & 
        Monkman, LLP

    TRIBAL SELF-GOVERNANCE ADVISORY COMMITTEE (TSGAC)

  [bullet] Governor Larry Nichols, Absentee Shawnee Tribe (TSGAC 
        Chairman 1996--2003)

  [bullet] H. Sally Smith, (deceased) Bristol Bay Area Health Board 
        Corporation (TSGAC Chair 2003-2004)

  [bullet] Don Kashevaroff, Seldovia Village Tribe (TSGAC Chair 2004- 
        2008)

  [bullet] Jefferson Keel, Chickasaw Nation, (TSGAC Chairman 2008--
        2011)

  [bullet] Chief Lynn Malerba, Mohegan Tribe of Connecticut, (TSGAC 
        Chair 2012--Present)

  [bullet] Alvin Windy Boyd, Chippewa Cree Tribe of Rocky Boy 
        Reservations, (TSGAC Vice-Chairman)

  [bullet] William E. Jones, Sr., Lummi Nation (TSGAC Vice-Chairman)

    SELF-GOVERNANCE COMMUNICATION AND EDUCATION (SGCE) PROJECT:

    Initial Self-Governance Coordinators and others who participated in 
formation of SGCE and development of communication and education 
materials:

  [bullet] Maureen Kinley, Initial SGCE Executive Director (1996-2012)

  [bullet] Raynette Finkbonner, deceased, Lummi Nation

  [bullet] Danny Jordan, Hoopa Valley Tribe

  [bullet] Cyndi Holmes Ferguson, Jamestown S'Klallam Tribe

  [bullet] Lynda Jolly, Quinault Indian Nation

  [bullet] Jerry Folsom, Lummi Nation

  [bullet] Darren Jones, Lummi Nation

    A special ``Thank You'' to SENSE Incorporated for compiling this 
list of Honored Self-Governance Pioneers and Warriors
                                 ______
                                 
 Prepared Statement of the United South and Eastern Tribes Sovereignty 
                       Protection Fund (USET SPF)
    On behalf of the United South and Eastern Tribes Sovereignty 
Protection Fund (USET SPF), we are pleased to provide the Senate 
Committee on Indian Affairs with the following testimony for the record 
of the Committee's oversight hearing, ``The 30th Anniversary of Tribal 
Self-Governance: Successes in Self-governance and an Outlook for the 
Next 30 Years,'' held on April 18th, 2018.
    USET SPF is an intertribal organization comprised of twenty-seven 
federally recognized Tribal Nations, ranging from Maine to Florida to 
Texas. \1\ USET SPF is dedicated to enhancing the development of 
federally recognized Tribal Nations, to improving the capabilities of 
Tribal governments, and assisting USET SPF Member Tribal Nations in 
dealing effectively with public policy issues and in serving the broad 
needs of Indian people.
---------------------------------------------------------------------------
    \1\ USET SPF member Tribal Nations include: Alabama-Coushatta Tribe 
of Texas (TX), Aroostook Band of Micmac Indians (ME), Catawba Indian 
Nation (SC), Cayuga Nation (NY), Chitimacha Tribe of Louisiana (LA), 
Coushatta Tribe of Louisiana (LA), Eastern Band of Cherokee Indians 
(NC), Houlton Band of Maliseet Indians (ME), Jena Band of Choctaw 
Indians (LA), Mashantucket Pequot Indian Tribe (CT), Mashpee Wampanoag 
Tribe (MA), Miccosukee Tribe of Indians of Florida (FL), Mississippi 
Band of Choctaw Indians (MS), Mohegan Tribe of Indians of Connecticut 
(CT), Narragansett Indian Tribe (RI), Oneida Indian Nation (NY), 
Pamunkey Indian Tribe (VA), Passamaquoddy Tribe at Indian Township 
(ME), Passamaquoddy Tribe at Pleasant Point (ME), Penobscot Indian 
Nation (ME), Poarch Band of Creek Indians (AL), Saint Regis Mohawk 
Tribe (NY), Seminole Tribe of Florida (FL), Seneca Nation of Indians 
(NY), Shinnecock Indian Nation (NY), Tunica-Biloxi Tribe of Louisiana 
(LA), and the Wampanoag Tribe of Gay Head (Aquinnah) (MA).
---------------------------------------------------------------------------
    USET SPF appreciates the Committee's efforts to commemorate a 
milestone anniversary of the passage of the 1988 Amendments which 
introduced a new phase in the evolution toward Tribal self-governance 
under the Indian Self-Determination and Education Assistance Act 
(ISDEAA). Tribal Nations are distinct, independent, political 
communities exercising powers of self-government by virtue of their own 
inherent sovereignty. The Constitution, treaties, statutes, Executive 
Orders, and judicial decisions all recognize that in return for ceding 
the millions of acres that comprise the United States, the federal 
government has a fundamental trust relationship to Tribal Nations, 
including the obligation uphold the right to self-government. However, 
for hundreds of years, federal policymaking undermined our sovereignty, 
instead treating Tribal Nations as incompetent ``wards.'' The landmark 
passage of ISDEAA and its subsequent amendments represented a 
fundamental change in federal policy and approach to Tribal Nations. It 
re-acknowledged that Tribal Nations are governments, fully capable of 
managing our own affairs and destiny. Below, USET SPF provides 
recommendations on how Congress must continue to improve and expand 
Tribal self-governance to meet the federal trust obligation, as well as 
provides an overview of the impact self-governance has had within the 
USET SPF region.
Importance of Tribal Self-Governance
    Since time immemorial, Tribal Nations have engaged in sophisticated 
and established forms of self-government. This was initially recognized 
by the founders of the United States, although the federal government 
later moved on to an approach based upon the notion of domestic 
dependency and plenary authority. To this day, Tribal Nations have 
demonstrated that we are best-positioned to deliver essential 
government services to our citizens, including through the assumption 
of federal programs and services. This is because Tribal Nations are 
directly accountable to the people we represent, acutely aware of the 
problems our communities face, and can respond immediately and 
effectively to changing circumstances. Since 1968, every Congress and 
President has recognized that Tribal governments are the entities best 
suited to meet the needs of their communities, working to reject 
previous antiquated assumptions from the 19th century that Indian 
people were incompetent to handle their own affairs and that Tribal 
Nations would eventually become obsolete. Passage of the ISDEAA 30 
years ago was a further recognition and partial restoration of our 
inherent sovereignty and self-determination.
    The success of self-governance under the ISDEAA is reflected in the 
significant growth of Tribal self-governance programs over the years. A 
majority of USET SPF Tribal Nations engage in self-governance 
compacting or contracting to provide essential government services 
including providing vital services such as education, housing, health 
care, and public safety. For example, our member Tribal Nations operate 
in the Nashville Area of the Indian Health Service, which contains 36 
IHS and Tribal health care facilities, of which 22 are Tribally-
operated through contracts and compacts. Through exercising this self-
governance authority under ISDEAA, USET SPF Tribal Nations have greater 
flexibility and control over federally funded programs to more 
efficiently and effectively utilize funding to meet the unique 
conditions within our Tribal communities. ISDEAA provides a fiduciary 
model that acknowledges the inherent rights and self-governance 
authorities of Tribal Nations.
Expansion of Tribal Self-Governance to all Federal Programs and Funding
    Despite the success of Tribal Nations in exercising authority under 
ISDEAA, the goals of self-governance have not fully been realized. Many 
opportunities still remain to improve and expand upon its principles. 
An expansion of Tribal self-governance to all federal programs under 
ISDEAA would be the next evolutionary step in the federal government's 
recognition of Tribal sovereignty and reflective of its full commitment 
to Tribal Nation sovereignty and self-determination. USET SPF, along 
with Tribal Nations and organizations, has consistently urged that all 
federal programs and dollars be eligible for inclusion in self-
governance contracts and compacts. We urge the Committee and Congress 
to draft and approve legislation that would initiate this expansion. We 
must move beyond piecemeal approaches directed at specific functions or 
programs and start ensuring Tribal Nations have real decisionmaking in 
the management of their own affairs and assets. It is imperative that 
Tribal Nations have the expanded authority to redesign additional 
federal programs to serve best their communities as well as have the 
authority to redistribute funds to administer services among different 
programs as needed. The Committee and Congress must modernize the 
current self-governance model in manner that is consistent with Tribal 
self-determination in the 21st century and rooted in retained sovereign 
authority.
    Examinations into expanding Tribal self-governance administratively 
have encountered barriers due to the limiting language under current 
law, as well as the misperceptions of federal officials. USET SPF 
stresses to the Committee that if true expansion of self-governance is 
only possible through legislative action, the Committee and Congress 
must prioritize legislative action on the comprehensive expansion of 
Tribal self-governance. This will modernize the federal fiduciary 
responsibility in a manner that is consistent with our sovereign status 
and capabilities. As an example, in 2013, the Self-Governance Tribal 
Federal Workgroup (SGTFW), established within the Department of Health 
and Human Services (HHS), completed a study exploring the feasibility 
of expanding Tribal self-governance into HHS programs beyond those of 
IHS and concluded that the expansion of self-governance to non-IHS 
programs was feasible but would require Congressional action. However, 
despite efforts on the part of Tribal representatives to the SGTFW to 
attempt to move forward in good faith with consensus positions on 
expansion legislation, these efforts were stymied by the lack of 
cooperation by federal representatives. USET SPF urges the Committee 
and Congress to use its authority to work to legislatively expand 
Tribal self-governance to all federal programs where Tribal Nations are 
eligible for funding, in fulfillment of the unique federal trust 
responsibility to Tribal Nations.
Support for the PROGRESS for Indian Tribes Act
    USET SPF supports the enhancement of Tribal self-governance by 
making the DOI self-governance program consistent with its IHS 
counterpart in Title IV, which is included within S. 2515, the 
Practical Reforms and Other Goals to Reinforce the Effectiveness of 
Self-Governance and Self-Determination for Indian Tribes Act of 2018 
(or PROGRESS for Indian Tribes Act). USET SPF also supports the goals 
and provisions within the legislation that seeks streamline the self-
governance process within the Department of the Interior and provide 
greater flexibility to Tribal Nations to administer federal programs to 
the needs of our communities. The introduction of the PROGRESS for 
Indian Tribes is a step in the right direction when it comes to 
upholding the sovereign status of Tribal Nations and USET SPF 
encourages the Committee to continue to take these necessary steps to 
expanding these authorities to all federal programs under ISDEAA.
Reporting Requirements do not Reflect Sovereign Status
    Further, USET SPF strongly recommends the Committee consider 
modifications to reporting requirements under ISDEAA and other methods 
of funding distribution. The administrative burden of current reporting 
requirements under ISDEAA including site visits, ``means testing,'' or 
other inapplicable standards developed unilaterally by Congress or 
federal officials are barriers to efficient self-governance and do not 
reflect our government-to-government relationship. Because funding for 
federal Indian affairs is provided in fulfillment of clear legal and 
historic obligations, those federal dollars should not be subject to 
these extraneous standards. USET SPF points out that federal funding 
directed to foreign aid and other federal programs are not subject to 
the same scrutiny. We reiterate the need for the federal government to 
treat and respect Tribal Nations as sovereigns as it delivers upon the 
fiduciary trust obligation, as opposed to grantees.
Promoting Inter-Agency Transfers through Contracting and Compacting
    As Congress works to ensure all federal dollars are contractible 
and compactable, USET SPF calls upon the members of this Committee to 
ensure legislation fully supports inter-agency transfers through self-
governances contracts and compacts. This is an opportunity to take 
steps toward self-governance within other federal agencies. For 
example, the Environmental Protection Agency (EPA) has a long track 
record of collaborating successfully with Tribal Nations and Tribal 
organizations, dating back at least to the agency's 1984 Indian Policy. 
This includes routinely collaborating with the Bureau of Indian 
Affairs, so that funding may be received through ISDEAA mechanisms. 
However, as USET SPF recently sought to utilize this model for the 
development of a Tribal risk and sustainability tool, there were 
differences in opinion between various agencies and operating divisions 
involved as to whether this was permitted. USET SPF urges that clarity 
be provided to ensure the use and promotion of this model in support of 
the continued expansion of self-governance.
Conclusion
    Though the recognition of Tribal self-governance through the 
passage and implementation of ISDEAA was a major advancement in the 
recognition of our sovereign status, USET SPF strongly encourages the 
Committee to move beyond its current limitations. Congress must 
recognize the inherent right of Tribal Nations to fully engage in self-
governance and expand the authority of Tribal governments, so we may 
exercise real decisionmaking in the management of our own affairs and 
services provided to our citizens. USET SPF reminds the Committee that 
Tribal Nations each have unique capabilities, goals, and concerns, and 
when Tribal Nations serve our own communities, these objectives are 
addressed in a more targeted and efficient manner. We urge the 
Committee to explore opportunities to better recognize and promote 
Tribal self-governance and self-determination, and stand ready to 
assist to ensuring sovereignty is exercised to its fullest extent.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                            Hon. James Floyd
    Question 1. In Montana, I've heard concerns from tribes about the 
cumbersome process associated with 638--in various programs and federal 
functions, especially with respect to the Fort Belknap Indian Community 
contract their detention facilities operations. What are some of the 
greatest challenges or successes you've experienced in contracting and 
compacting?
    Answer. Muscogee (Creek) Nation (MCN) signed our first Self-
Governance Compact and Funding Agreement in 1995 to assume the majority 
of functions we continue to operate today. Though we have not assumed 
many additional programs, services, functions, and activities since 
then, the Nation has heard that this process has become cumbersome from 
other Tribes. For example, MCN has offered support to Tribes who are 
working to assume realty functions. In those instances, Tribes have 
struggled to receive timely information from the Bureau of Indian 
Affairs (BIA) regarding current service levels, funding amounts and 
personnel. Missing information regarding current program operations, 
services, personnel and funds can make it very difficult for a Tribe to 
evaluate internal capacity and appropriate transition of the functions. 
In most cases, BIA employees play a critical role in facilitating the 
transfer of information, but the process used internally to the agency 
to produce and vet the information is cumbersome and lengthy. However, 
these employees have a vested interest in maintaining their current 
employment so the communication and transfer of programs is becoming 
increasingly difficult.
    The other significant challenge Tribes face is the antiquated 
process the Department of the Interior (DOI) uses to transfer funds to 
Tribes. DOI's current internal accounting procedures significantly 
delay the receipt of funds. If Tribes desire to assume new or expanded 
functions from DOI, they often have to cash flow expenses for as many 
as 60-90 days. This greatly limits options available to Tribes and can 
be a significant deterrent to Tribes. Though MCN does not experience 
hardship funding programs while the agency works through the 
bureaucratic process to disseminate Congressional appropriations, it is 
an obstacle Tribes have to evaluate prior to assuming programs, 
services, functions, and activities.
    Building capacity and preparing to operate federal programs takes 
time and significant effort. Encouraging DOI and BIA to change the 
current federal processes and procedures would make the transfer of 
federal programs to Tribal administration much easier.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                          to Hon. James Floyd
    Question 1. Based on your testimony it seems that you have had 
success in law enforcement and with your Realty Department. It seems 
like a daunting task to cover the round of an area size of New Jersey. 
What are some of the other goals the Muscogee hope to achieve through 
Self-Governance?
    Answer. One primary success MCN has capitalized is the successful 
operation of many social service programs with more administrative 
efficiencies. The Nation's operation of service programs such as the 
Welfare Assistance Program, Indian Child Welfare, and Employment and 
Training has allowed the Tribe to assist the neediest of our families, 
while also providing case management to change the cycle. We continue 
to seek out ways to streamline tribal- and BIA-funded programs to meet 
the needs of citizens using the most efficient and effective means.

    Question 2. How can Congress and this Committee assist you in 
achieving those goals?
    Answer. Often tribally-driven initiatives meet consternation due to 
archaic BIA and DOI rules and regulations. When Tribes want to 
implement programs that vary from the BIA programmatic rules, Tribes 
are required to submit a waiver and wait for a response. Thankfully, 
there is a timeline in which officials must respond, but the process is 
cumbersome and resulting decisions opaque. Tribes would have more 
flexibility if Congress created parity between Title IV and Title V of 
the Indian Self-Determination and Education Assistance Act to allow 
Tribes the flexibility to implement programs as they see fit. The 
process should not require a waiver, but allow adoption of the BIA 
regulation instead.
    Muscogee (Creek) Nation looks forward to your continued partnership 
and the next 30 years of Self-Governance.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                          to Hon. Carlos Hisa
    Question 1. You assert the Ysleta del Sur Pueblo's commitment to 
data driven approaches and the increases you've seen in education 
attainment. It is impressive to hear that you have doubled the rate of 
college degrees in the last decade and your economic development 
efforts seem to be moving in an upward trajectory. You mentioned using 
your outcomes to harvest your full potential. How has the current self-
governance structure affect your education initiatives and economic 
development?
    Answer. The Ysleta del Sur Pueblo has the flexibility to prioritize 
education and economic development programs to meet the voids reported 
in our socioeconomic study. For example, some of the information in the 
report findings demonstrated that we have nearly 30 percent of our 
members with some college attainment, however, they are not completing 
degrees. While it is critical to maintain higher education scholarship 
funding; this alone is not a sustainable solution. Through self 
governance, we are able to allocate higher education funding in a 
manner that concentrates on mitigating barriers to members dropping out 
or preventing them from attaining their degrees. Case management and 
support services such as tutoring are now components to our higher 
education program meant to address our unique situation. In addition, 
our economic development department is incorporating the socioeconomic 
data into a vocational program aimed at building tribal member skills 
and workforce capabilities so that they are prepared for gainful 
employment opportunities associated with regional and tribal economic 
developments. Efforts are currently underway to align tribal member 
skill sets with future employment potentials in areas such as 
healthcare delivery, business administration and finance. The Pueblo 
has identified long-term community development plans that will yield 
these types of outcomes.
                                 ______
                                 

*RESPONSES TO THE FOLLOWING QUESTIONS WERE NOT AVAILABLE AT THE TIME 
                    THIS HEARING WENT TO PRINT*

          Written Questions Submitted by Hon. Steve Daines to 
                      Hon. Arthur ``Butch'' Blazer
    Question 1. A few weeks ago, Kevin Washburn, who served as 
Assistant Secretary for Indian Affairs under the Obama administration, 
published an article entitled Everybody Does Better in Indian Country 
When Tribes are Empowered in which he reinforces the case for self-
governance and its positive impacts on jobs and the economy in Indian 
country.
    Montana is home to two self-governance tribes: The Confederated 
Salish and Kootenai Tribes and the Chippewa Cree Tribes, who enjoy the 
flexibility and sovereignty that the Indian Self-Determination Act of 
1975 made possible. Chairman Trahan of CSKT also happens to be in town 
and I look forward to meeting with him tomorrow.
    President Blazer, what do you view as the next frontier for self-
governance? What are the next functions that you see as most important 
for tribes to have the authority to contract or compact?

    Question 2. What about USDA's SNAP program? As a member of both 
this committee and the Senate Committee on Agriculture, Nutrition, and 
Forestry, I've been hearing loud and clear from tribes that this is a 
policy they want to see included in the upcoming Farm Bill. How would 
having 638 or compacting authority over SNAP benefit your nation?

                                  [all]
</pre></body></html>
